<html>
<title> - FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION: ISSUES IN MODERNIZING AND OPERATING THE NATION'S AIRSPACE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION: ISSUES IN MODERNIZING 
                  AND OPERATING THE NATION'S AIRSPACE

=======================================================================

                                (113-83)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

00-000 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. Calvin L. Scovel III, inspector general, U.S. Department of 
  Transportation.................................................    11
Hon. John Engler, president, Business Roundtable, and former 
  Governor of Michigan...........................................    11
Captain Lee Moak, president, Air Line Pilots Association, 
  International..................................................    11
Mark Baker, president and CEO, Aircraft Owners and Pilots 
  Association....................................................    11
Nicholas E. Calio, president and CEO, Airlines for America.......    11
Paul Rinaldi, president, National Air Traffic Controllers 
  Association....................................................    11

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Calvin L. Scovel III........................................    50
Hon. John Engler.................................................    77
Captain Lee Moak.................................................    83
Mark Baker.......................................................    94
Nicholas E. Calio................................................   107
Paul Rinaldi.....................................................   115

                       SUBMISSIONS FOR THE RECORD

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, request to submit a letter from Hon. Yvette D. 
  Clarke, a Representative in Congress from the State of New 
  York, regarding LaGuardia Airport, November 17, 2014...........    10
Hon. Calvin L. Scovel III, inspector general, U.S. Department of 
  Transportation, responses to questions for the record issued by 
  the following Representatives:

    Hon. Rodney Davis of Illinois................................    65
    Hon. Elizabeth H. Esty of Connecticut........................    66
    Hon. Richard L. Hanna of New York............................    67
    Hon. Bill Shuster of Pennsylvania............................    71
Mark Baker, president and CEO, Aircraft Owners and Pilots 
  Association, responses to questions for the record issued by 
  Hon. Elizabeth H. Esty, a Representative in Congress from the 
  State of Connecticut...........................................   106
Written statement of December 2, 2014, from Charles T. ``Skip'' 
  Miller, executive director, Louisville Regional Airport 
  Authority......................................................   125


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                     FAA REAUTHORIZATION: ISSUES IN
                     MODERNIZING AND OPERATING THE
                           NATION'S AIRSPACE

                              ----------                              


                       TUESDAY, NOVEMBER 18, 2014

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order.
    Good morning, I wanted to thank everybody for being here. 
We have a packed room, a topic of great interest, I hope.
    The FAA reauthorization issues in modernizing and operating 
the Nation's airspace. I believe it is a critical issue, and 
one that I and the members of the committee have been talking 
about for a year now. And as we go into the next Congress, 
September, we are going to have to reauthorize the FAA and so 
we have been working for a year on that. Meeting with folks in 
this room, members of the committee, stakeholders all across 
the country, to try to better understand what the situation is 
out there, and today is going to shed even more light on that.
    Our 1958 Congress recognized the need to establish a 
comprehensive aviation regulatory and air traffic control 
system. This system has served our country remarkably well and 
today we have the safest system in the world. However, the 
world has changed since 1958 in numerous ways and it is time to 
take stock, where we are and what we need for decades ahead.
    Today's hearing is an opportunity for us to learn about 
issues we should consider as we plan for the next FAA 
reauthorization and beyond. It will not come as a surprise to 
any pilot who has waited in a long line of planes on the 
tarmac, or to any passenger who has watched the departure board 
as his or her flight is delayed or cancelled, that our system 
can be better.
    Since the Federal Aviation Administration was created 56 
years ago, there have been many attempts to reform it. For 
instance, numerous advisory committees have been made, reform 
recommendations based upon input from aviation stakeholders. 
Both President Clinton in the 1990s and President Bush in the 
2000s, sought to reform the FAA in order to ensure the level of 
air traffic control service that Americans deserve. While each 
had a varying degree of success, neither was able to implement 
long-lasting transformative reform.
    As air travel continues to grow and our airspace becomes 
increasingly more complex, we must ensure that the 
infrastructure, rules, process, laws are up to date and able to 
withstand the test of time. To do that we must make sure the 
FAA is properly structured to carry out our modernization 
efforts and operate as efficiently as possible.
    In report after report the inspector general of the 
Department of Transportation and the Government Accountability 
Office, for that matter, has identified costly problems with 
the FAA's management of air traffic control modernization 
programs. For example, in 1998 the IG found that in carrying 
out one modernization program, the FAA had wasted a billion 
dollars of taxpayers' moneys. Sadly, the IG will testify today 
that this is not uncommon. He notes that of 15 major 
acquisitions that were ongoing as of September 2013, 8 included 
acquisition cost increases amounting to $4.9 billion, and 8 
experienced delays.
    This waste is a result of the FAA's inability to plan 
effectively, to manage programs in a way that delivers 
responsible, cost-effective, and beneficial outcomes. Congress 
has an important role in modernization efforts. And we will 
continue to provide the tools and the resources necessary while 
also conducting the oversight to ensure taxpayer money is not 
being wasted.
    Now is the time for us to learn from the past mistakes 
while at the same time taking note of what other nations have 
accomplished, and how they have done it. What successes can we 
apply to the American system that will help us safely and 
efficiently modernize our airspace? I don't have all of the 
answers. So I look to the aviation stakeholders and those of 
you in this room that are experts for your input. As we move 
forward we want to look at all options, put all options on the 
table. However, anything we do in the FAA reauthorization needs 
to be done together to ensure that our work helps lay a 
foundation for the best possible future of the U.S. aviation.
    American aviation, we invented it. We have been the leader 
in aviation for the past 80 years. We are now starting to lose 
our edge. Competition coming from foreign carriers, from 
foreign manufacturers, and one of the big impediments is our 
own bureaucracy here in Washington and around the country that 
impedes us from allowing to compete and move products to market 
fast and quickly. We cannot allow this to happen and we must 
act now.
    If you just look back at the 23 extensions, the 
sequestration that took place, the Government shutdown, the 
time is now and I think that all the stakeholders are in the 
room that have had to go through those painful experiences know 
that we really have to take a different look and move in a 
different direction.
    Today we have representatives from a wide cross-section of 
aviation stakeholders who can offer valuable insight into the 
issues we face. So I look forward to hearing from our 
witnesses, and thank them all for appearing here today.
    Before yielding to Ranking Member Rahall, I ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided answers to any 
questions we have submitted to them in writing, and unanimous 
consent that the record remain open for 15 days for additional 
comments and information submitted by Members or witnesses be 
included in the record of today's hearing. Without objection, 
so ordered.
    I now yield to the ranking member, Mr. Rahall, for opening 
remarks.
    Mr. Rahall. Thank you, Mr. Chairman, I appreciate it.
    It has been my great honor to serve as ranking member of 
this committee for the last 4 years, and on this committee for 
my entire 38-year career in the Congress.
    Mr. Chairman, your commitment to bipartisanship has proven 
that together we can do great things. We successfully completed 
the Water Resources Reform and Development Act this year, which 
showed the American people that leaders in Congress can come 
together to pass big bills and improve local economies and our 
Nation's infrastructure.
    In September, the committee marked up a bipartisan Amtrak 
reauthorization that again showed both sides' willingness to 
compromise for the good of the traveling public. And I have 
every confidence, Mr. Chairman, that if you work in that same 
spirit of bipartisanship and cooperation, FAA reauthorization 
will be short and swift. I have seen so many extensions, 23, I 
think as you mentioned, that it is like watching a child, I 
guess, come of age and then the parent leaves home instead of 
the child.
    Since I was first elected to Congress, a lot has changed in 
our aviation system. In 1977, we were on the eve of airline 
deregulation. Our modern air traffic control system had existed 
for less than 20 years at that point. There has been talk 
recently of potentially changing the structure of air traffic 
control in the United States.
    On that point, I would just say that when Congress enacted 
the Federal Aviation Act of 1958, it recognized that good 
Government is at the core of a safe air traffic control system. 
However this reform idea takes shape, I would urge my 
colleagues to ensure that labor remains engaged in the 
conversation, and that aviation programs receive robust, stable 
funding and to keep air traffic control in the realm of good 
Government, where it belongs.
    With that, Mr. Chairman, I thank you for today's hearing. I 
will miss working with you and all of my esteem colleagues from 
both sides of the aisle, but I know that with your leadership, 
and your bipartisanship, and your transparent manner of 
operating this committee, this Nation's future is in good 
hands.
    Mr. Shuster. I want to thank the gentleman.
    And with that I recognize the subcommittee chairman Mr. 
LoBiondo for an opening statement.
    Mr. LoBiondo. Thank you Chairman Shuster, I especially want 
to thank you for holding this hearing at a full committee level 
to emphasize the importance of it and I would really like to 
echo the chairman's comments about the critical importance.
    The United States has a great deal to be proud of when it 
comes to aviation and thanks to the men and women in this 
country who day in and day out pilot the aircraft, serve as air 
traffic controllers, care for the passengers, maintain 
equipment, and numerous other important jobs, we have the 
safest and busiest aviation system in the world that keeps our 
economy ticking and serves as a model of American global 
leadership.
    This industry and these issues are near and dear to my 
heart. As many of you know, I represent the FAA's flagship 
technical center in my district, that has and continues to play 
a vital role in making advances in aviation safety, and air 
traffic control technology. However, I believe there are some 
things we need to do even better, like getting technology 
programs both done and delivering benefits on time without any 
further waste of taxpayer's money. Let us look at the long-term 
challenges our aviation sector is facing, and be bold and 
decisive in addressing these through an open exchange of ideas.
    It is my hope today to learn what issues we in Congress 
need to think about as we look forward to the next FAA 
reauthorization and beyond to ensure we continue to have the 
safest system possible that also secures America's leadership 
in this vital global economy.
    And Mr. Chairman, as you have indicated, there is so much 
at stake, and we have a tremendous opportunity to build on what 
we have done for the last 2 years, so I look forward to the 
hearing, and look forward to the participation and moving 
forward.
    I yield back, thank you.
    Mr. Shuster. Thank the gentleman.
    I now recognize the ranking member of the Subcommittee on 
Aviation, Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman, and for calling 
today's hearing on our work ahead to reauthorize the Federal 
aviation programs by October next year, and I look forward to 
working with you and Chairman LoBiondo and all of my colleagues 
to get a bill done on time, one that improves safety and keeps 
our aviation system the envy of the world.
    I also want to recognize families of the passengers of 
Colgan flight 3407, who are with us today. And we welcome you 
and want to thank you for your tireless efforts to improve 
aviation safety.
    I want to just recognize that many of the aviation 
stakeholders, including a few testifying here today, are 
frustrated with funding uncertainty and the delays associated 
with some programs like NextGen. But I also want to be clear: 
the FAA is making progress, and good progress thanks to the 
Subcommittee on Aviation's strong oversight under Chairman 
LoBiondo's leadership.
    At this time last year we were uncertain when we would see 
a plan for implementing DataComm, and now in response to a 
tasking by Chairman LoBiondo, the FAA has a plan with industry 
support to implement DataComm. At this time last year, we were 
uncertain about the path forward for performance-based 
navigation procedures, and now again in response to our 
tasking, the FAA has a plan with industry support for 
accelerating PBN procedure implementation.
    So when I read in some stakeholders' testimony that the FAA 
is not moving fast enough on several of these programs, I would 
also like to point out that we have progressed significantly 
from last year. And Chairman LoBiondo and I remain laser-
focused on making sure the FAA continues to make progress. 
Moreover, under Chairman LoBiondo's leadership the Subcommittee 
on Aviation has held hearings in the last Congress on FAA's 
work to streamline the certification process. We heard the FAA 
has made progress. We also held two subcommittee meetings on 
the FAA's work to integrate unmanned aircraft systems into the 
national airspace and will stay focused on progress there as 
well.
    At the same time we recognize that more has to be done. The 
FAA must have funding certainty and the flexibility to invest. 
When we talk about the FAA's challenges in running programs 
smoothly, we need to recognize the agency's problem is not only 
a management problem. I think the agency has a political 
problem, a political problem resting here in Congress.
    Last year's efforts by some in Congress to force the 
Federal Government off the fiscal cliff was not only--was a 
catastrophe for the everyday operation of the national 
airspace. It caused great harm to NextGen efforts. Just as the 
FAA must do better, we have to do better here in Congress, and 
I hope today's hearing will give us a solid path for how we 
should progress with a strong bipartisan bill.
    I know conversation has been going on about air traffic 
reform, as well; I have had some of those conversations with 
folks. I just want to be sure that reauthorization does not 
become a science experiment. If we resolve to go big in this 
bill with significant air traffic reforms, we must do so 
methodically with a clear statement of the problem we are 
trying to solve, and a clear understanding of how to solve it 
without compromising safety in any way.
    This hearing might be a good first step in that regard. 
Today we are asking, what problems should we solve in 
reauthorization? That is an important question. We all need to 
understand there may not be one answer to that. And I look 
forward to hearing how witnesses would answer that.
    In addition to airspace management, we can't lose sight of 
the work that needs to be done to safely implement and 
integrate UAS in the airspace, improve certification, and 
streamline FAA facilities. I look forward to tapping those 
topics in future hearings.
    On that note, Mr. Chairman, I look forward to working with 
the full committee and next Congress, and with your continued 
commitment to bipartisanship, I know we can produce a bill that 
provides the funding, the stability, and the flexibility that 
the FAA needs to move forward along in the future to continue 
to make sure we have a safe national airspace.
    I thank you for holding this hearing and I look forward to 
hearing from our witnesses.
    Mr. Shuster. Thank you very much, Mr. Larsen.
    Before we get started, I think it is important that we 
acknowledge there are a number of members of this committee 
that this will be their last hearing. So if you would indulge 
me. Let's start with the most junior Member, I don't think he 
is here, Mr. Daines. He has gone off and lost his mind and 
decided to run for the Senate. I tried to tell him the other 
day on the floor, I hope he remains true to his roots as a 
House Member, and continues to work hard to get things done and 
not hold things up so--but we wish him well in the Senate over 
there.
    Mr. Michaud, who is--I don't believe he is here. I am sure 
he is going to go on to bigger and better things. You know, 
when you leave Congress, I look out at the folks out there that 
they usually have bigger smiles than we do, especially at the 
end of the month and when we are out of session. So again, I 
wish Mike all the best in whatever endeavors he goes off to.
    Gary Miller has been a long-time member of this committee. 
I don't think Gary is here. Gary has really been a champion of 
developers and building in this country and has always been on 
the forefront of trying to reduce the burdens the Government 
puts on us as we try to develop and build roadways and develop 
communities around the country. So Gary, we wish you well in 
your future endeavors.
    Mr. Bishop from New York, who was a great ally and working 
on the WRRDA bill. There were times when we would disagree. 
There were times that we would agree and I would say, I can't 
get that through my conference, so I can't even be for it. I 
mean, I want to be, but I can't. And so I think we had a good 
understanding of finding a common ground, moving the bill 
forward, and it was a lot of his hard work is the reason we got 
to that 417 mark on final passage, and I appreciate all of the 
efforts that he has put forward.
    I will say I am not going to miss him on third base. I 
think the last game you had seven put outs or something like 
that; something outrageous for a guy your age. And I think at 
least one of them was me you put out. So you know, but we are 
going to miss you and miss greatly your voice of reason, and of 
course, you represented your district extremely well over the 
years and the committee will miss you.
    Mr. Coble, Howard Coble is leaving the committee, the 
Coastie, served over 20 years and has been a great advocate for 
transportation infrastructure, and certainly been a great 
protector of the Coast Guard and on the other committees he has 
worked on. So Howard, he is not here today. I know he is around 
here somewhere. We wish you well in your future endeavors.
    Shelley Moore Capito, truly West Virginia royalty. Is there 
such a thing? I am from western Pennsylvania, so I can make 
some analogies about being at the top of certain mountains, but 
I won't. But Shelley, we wish you well in the Senate. We know 
you are going to do a great job over there. And we know you 
won't forget us. You can talk to us over here. We hope you will 
continue to do that. But congratulations on your victory. And 
we know you, as I said, will do extremely well in the Senate.
    Tom Petri. He was right here. I thought I saw him here. I 
think he thought I was going to talk about him so he left. But 
here is a guy that served on this committee for almost four 
decades; served in every capacity and every subcommittee on the 
committee, and you know, he was here for ISTEA, TEA-21, 
SAFETEA-LU, MAP-21. Here is a guy that has got tremendous 
institutional knowledge. He has decided to go back to Wisconsin 
and not put up with the headaches of Congress. And again, we 
wish him well in his endeavors. And let's see, make sure I get 
everybody.
    Finally, most importantly, my partner, the leader of the 
Democratic side in the T&I Committee, Nick, you have been a 
great friend, a great ally. I have got a lot of stories about 
going to WRRDA with Nick. My staff told me not to tell the one 
I really want to tell. So I am going to get rolling here, and 
then you never know what is going to come out.
    But truly, when we sat down for the very first time and 
talked about how we could work together, and Nick said, it is 
about communication. Let me know where you are. I will let you 
know where I am and so we worked very well together on WRRDA. 
There were times when we would go to negotiate with the Senate 
and Nick was with us, and we agreed to be on the same page, and 
there were times we tried to get together before to figure out 
what maybe would happen in the room and sometimes we didn't. He 
would come in late or I would be there late, so we didn't get a 
chance to talk. But he truly was a great counter puncher.
    When Barbara would come up with something that we disagreed 
with, I didn't even have to wink at Nick. He didn't say 
anything. He was able to counter punch and help me prevail on 
the issue.
    So again, it was a great honor to work with you. We got a 
lot of stuff done. There is one really, really interesting 
story that, the most important thing was WRRDA was passed, but 
there was another story that was one of the highlights of the 
conference that caused us to lose our way for about 15 minutes. 
But I am not going to go into it because my staff insists I 
shouldn't. But it is a great story about Nick and his great 
history here on Capitol Hill and his great friendships he has 
developed.
    So Nick, again, we are going to miss you greatly. We know 
that wherever you land out there, we know you are going to do 
well and you will always have friends up here on Capitol Hill.
    Mr. Rahall. May I respond to that, Mr. Chairman?
    Mr. Shuster. Yes, sir, are you going to tell the story?
    Mr. Rahall. No, I am just going to say thank you for your 
kind words and just commend every member of this committee, 
both sides of the aisle, commend the professionalism of the 
staff, each member of this committee brings talents, and 
background, and a wealth of knowledge about transportation and 
so many issues. They also bring a dedication to their 
constituents, above and beyond anything else. And this 
committee is where the future of this country is at, in my 
opinion. This committee is about jobs, jobs, and jobs.
    And Mr. Chairman, when I look back over the bills that we 
have produced in a bipartisan fashion, you truly have returned 
that spirit of bipartisanship to this committee, and every 
Member has a desire to work across party aisles in order to 
produce for the American people, and this is where the future 
of the country is, in my opinion, is on this committee right 
here. And I feel very safe that that future is in great hands 
under your leadership.
    Thank you.
    Mr. Shuster. Thank you.
    With that, I recognize the--do I have to call you Senator 
yet? OK--the gentlelady from West Virginia, the royalty from 
West Virginia, Mrs. Capito.
    Mrs. Capito. Thank you, Mr. Chairman. That will get 
nowhere, anyway.
    I appreciate your leadership on the committee, and I have 
been honored to be on the committee now for 12 years. But I 
wanted to take this opportunity to thank my colleague, Nick 
Rahall, from West Virginia. He served honorably and with long 
tenure and with a lot of distinction over his 38 years in 
Congress; most notably on this committee.
    His legacy in West Virginia will be long and strong. The 
Rahall Institute of Transportation I think shows his passion 
for all areas of transportation and it is a growing, vibrant, 
economic development driver in our State, and I appreciate that 
for him.
    One of the things that I have always admired about Nick, is 
that he has a wonderful turn of phrase. If you have ever heard 
him argue a point, or read his press releases, or heard him try 
to convince you to his way of thinking, he is very, very 
clever, and very humorous at the same time. So I have always 
enjoyed that Nick about your--except when it is aimed at me 
maybe but--never aimed at me, but in any event, I thank you for 
everything you have done for me, and with me, and for our 
beloved State of West Virginia. You have been a fighter for 
West Virginia through and through and I appreciate it. Thank 
you.
    Mr. Rahall. If the gentlelady would yield I appreciate your 
kind comments, Senator-elect, and congratulations to you, and 
we will always be working for the future of our great State and 
this country. Thank you.
    Mr. Shuster. Any other Members wish to be heard?
    Mr. Bishop.
    Mr. Bishop. I just very briefly want to thank you, Mr. 
Chairman, for your very kind words, and also thank you for the 
leadership that you have provided to this committee.
    My fondest hope as I leave the Congress is that the way in 
which this committee has conducted its business will come to 
characterize the way the Congress as a whole conducts its 
business. I fear that may be a distant hope, but it is very 
much my hope.
    I also have greatly enjoyed and benefitted from working 
with Ranking Member Rahall. I have learned a great deal about 
how to do my job from watching how he does his.
    And to all of my colleagues on this committee, to Chairman 
Gibbs with whom we worked very closely on the Subcommittee on 
Water Resources and Environment, I have enjoyed my service. I 
have cherished my time on this committee, and I wish you all 
the very best in the future.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you Mr. Bishop.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Well I have been on this committee my entire tenure in 
Congress and my first term, the chairman of the subcommittee 
on--I can't even remember--oh, you were then on resources; 
mines and mining. Nick came into my district for a very 
interesting hearing. I won't go into the story right now, but I 
told him the story the day after election day and even got him 
to laugh. I will miss Nick a lot.
    Jim Zoia, who I think has been with Nick almost the whole 
time, if not the entire time, I have good stories about Jim, 
too, back in the days when we used to do earmarks which we need 
to bring back, and how we promoted them with Jim in one bill.
    And Tim, it may not have helped as much in your district, 
although I know you have got some coasts, but in my district I 
bragged on water the entire election. Did better on the coast 
than I have done in years. That shows transportation 
investments are important to the American people and 
bipartisan. So thank you for that great work.
    And I look forward to working with you, Mr. Chairman, thank 
you.
    Mr. Shuster. Thank you.
    Mr. Mica.
    Mr. Mica. Well, thank you, and to all of our departing 
Members, we wish you well. Just had an incredible run in my 
short tenure as chairman and ranking member. Of course, we all 
remember working with Mr. Transportation, Jim Oberstar, who we 
did a lot of positive things with, first, reauthorization of 
passenger rail, and 11 years, the first WRDA, a record number; 
$24 billion, which we actually overwrote President Bush's veto 
quietly when Jim went into the hospital.
    But with Mr. Rahall, I found out where Beckley, West 
Virginia, was with our first, very first transportation hearing 
on the reauthorization. Some things couldn't be accomplished 
when one party had the House, Senate, and the White House. And 
I know we had some rough and tumble, but we did accomplish for 
the American people a record number of pieces of legislation.
    So I thank him for his service, and all of the departing 
Members for their service. We have an important responsibility 
in building a Nation's infrastructure, and I intend to work 
with everyone to make certain that we keep that obligation.
    I yield back.
    Mr. Shuster. I thank the gentleman.
    With that, we will go on to our panel now. Thank you for 
indulging us.
    Our panel today consists of the Honorable Calvin Scovel 
III, inspector general for the Department of Transportation; 
Governor John Engler, president of the Business Roundtable. 
Captain Lee Moak, president of the Air Line Pilots Association, 
International; Mr. Mark Baker, president and CEO of the 
Aircraft Owners and Pilots Association; Mr. Nick Calio, 
president and CEO of Airlines for America; and Paul Rinaldi, 
president of the National Air Traffic Controllers Association. 
Thank you all for being here.
    And before I let you start, Mr. Larsen wants to be 
recognized for a UC.
    Mr. Larsen. Thank you, Mr. Chairman. I ask unanimous 
consent to enter into the record a letter from Congress Member 
Yvette Clarke regarding issues that she has around LaGuardia.
    Mr. Shuster. Without objection, so ordered.
    [The information follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Mr. Shuster. And with that, we will recognize first General 
Scovel 5 minutes for your opening statement. Proceed.

TESTIMONY OF HON. CALVIN L. SCOVEL III, INSPECTOR GENERAL, U.S. 
  DEPARTMENT OF TRANSPORTATION; HON. JOHN ENGLER, PRESIDENT, 
 BUSINESS ROUNDTABLE, AND FORMER GOVERNOR OF MICHIGAN; CAPTAIN 
       LEE MOAK, PRESIDENT, AIR LINE PILOTS ASSOCIATION, 
 INTERNATIONAL; MARK BAKER, PRESIDENT AND CEO, AIRCRAFT OWNERS 
 AND PILOTS ASSOCIATION; NICHOLAS E. CALIO, PRESIDENT AND CEO, 
AIRLINES FOR AMERICA; AND PAUL RINALDI, PRESIDENT, NATIONAL AIR 
                TRAFFIC CONTROLLERS ASSOCIATION

    Mr. Scovel. Chairman Shuster, Ranking Member Rahall, 
members of the committee, thank you for inviting me to testify 
on FAA's efforts to modernize the National Airspace System.
    As you know, FAA has undergone considerable change after 
Congress granted several important reform authorities. FAA is 
also in the midst of a multibillion-dollar effort to improve 
the efficiency of its air traffic system through NextGen. My 
testimony today will highlight several challenges that we have 
identified through our ongoing and recently completed audits 
faced by FAA as it tries to meet its modernization and reform 
goals.
    First, while FAA has instituted a number of important 
reforms such as establishing the Air Traffic Organization, it 
has yet to fully adopt sound management practices, such as 
using metrics and goals to assess productivity. Without such 
practices, FAA's reforms will have little effect on slowing 
cost growth or improving operational efficiency. We determined 
that between fiscal years 1996 and 2012, FAA's total budget, 
operations budget, and personnel compensation and benefits 
costs nearly doubled in nominal terms with inflation accounting 
for only part of this increase.
    Further, FAA's workforce remained relatively constant 
during this period, while FAA's air traffic operations dropped 
20 percent between fiscal years 1998 and 2012.
    Second, FAA's acquisition reforms have fallen short in 
improving the delivery of new technologies and capabilities. 
When FAA implemented a new acquisition management system in 
1996, its stated goal was to cut acquisition costs by 20 
percent and schedules by 50 percent within 3 years. Yet, 
between 1996 and the establishment of the ATO in 2004, 
acquisitions averaged 38 percent over budget, and 25 percent 
behind schedule, consistent with FAA's prior performance.
    Moreover, of the 15 major acquisitions that were ongoing as 
of last year, which totaled $16 billion, 8 included cost 
increases amounting to $4.9 billion, and 8 experienced delays 
ranging from 6 months to as much as 15 years. Now, most of 
these overruns are attributable to two problem-plagued 
programs. But even factoring them out, the remaining programs 
are still $539 million over budget, and behind schedule by an 
average of 25 months.
    FAA's cost overruns, delays, and poor performance on these 
major acquisitions are traceable to longstanding management 
weaknesses in identifying requirements, estimating software 
complexity, leveraging sound contracting practices, and 
securing reliable cost and schedule estimates.
    For example, during the award phase of its ATCOTS contract, 
a support service contract to improve air traffic controller 
training, FAA found that there was a 60- to 80-percent 
likelihood that the contract would not meet its goals due to 
the limited staff hours proposed by the successful bidder. 
However, FAA did not require the contractor to address this 
risk before awarding the contract, leading to a cost increase 
of 30 percent in the first 2 years of the contract.
    As FAA works to better meet the goals of its reforms and 
modernization efforts, it faces additional challenges. Key 
among these is FAA's work to implement four NextGen investment 
priorities identified by a joint industry-agency committee, 
including performance-based navigation, which our office also 
has identified as the top priority. FAA published its master 
implementation plan for these priorities last month. However, 
executing the plan and holding all parties accountable could be 
difficult, especially given FAA's history of schedule slippages 
and cost overruns with NextGen programs.
    Adding to these complexities, FAA faces the demanding task 
of safely integrating unmanned aircraft systems into U.S. 
airspace. The rapidly accelerating demand for UAS presents 
important economic and technological opportunities for our 
Nation. However, before commercial UAS can safely operate in 
U.S. airspace, FAA must first reach consensus with industry on 
design and safety standards, establish necessary rules and 
regulations, and collect and analyze UAS safety data to better 
understand and mitigate risk.
    Finally, recent incidents involving fires at Chicago area 
air traffic control facilities demonstrate the importance of 
ensuring that FAA has controls in place to mitigate potential 
security risks and viable business continuity plans to maintain 
operation of the Nation's extensive air traffic control system.
    Ultimately, FAA's actions to implement the reform 
authorities Congress granted almost two decades ago have not 
achieved the results the agency and this committee seek. We 
remain committed to working with FAA to help it succeed in 
meeting ongoing challenges highlighted today.
    Mr. Chairman, this concludes my prepared statement. I am 
happy to answer any questions you or other members of the 
committee may have.
    Mr. Shuster. Thank you very much, General.
    And now we before we go to Governor Engler, it is fitting 
that he has a fitting introduction because of the star power 
that he brings to the panel today.
    So with that I yield to Mrs. Miller.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman.
    First of all, I would like to thank you for providing the 
sound effects of the whistle in the room when we are talking 
about aviation. So you think of everything. We appreciate that.
    But, it is my great honor to introduce Governor John Engler 
from the great State of Michigan. As many of you know, I served 
as Michigan Secretary of State for 8 years before I came to the 
Congress, and I had that honor and privilege of serving with 
Governor Engler at that time. And if I can be a bit parochial, 
I certainly think he was one of my State's most successful 
Governors, and I think one of the Nation's successful Governors 
on all kinds of issues. But he really left a legacy in the 
transportation area as well.
    And so very fitting as we are talking about transportation 
today in our aviation system that he is here. We have Detroit 
Metropolitan Airport, of course, in southeast Michigan, one of 
our Nation's, one of the world's busiest airports. And during 
his tenure his last year, I think, as Governor, he put together 
an authority that really cleaned up a lot of things that needed 
to be cleaned up at our airport. And today, if any of the 
millions of you go through that airport, you will see what a 
fantastic facility it is because he recognized how important 
aviation is as a critical link and component of our aviation 
transportation grid.
    And so, as the president of the Business Roundtable with 
his vision and commitment taking it to a national level, we 
certainly appreciate his attendance here today. Governor.
    Mr. Shuster. Thank you, Mrs. Miller, and with that, I just 
remind our panelists, pull that mic close to you because that 
whistle is pretty annoying and it is difficult to hear 
sometimes.
    So with that, Governor Engler you are recognized for 5 
minutes.
    Mr. Engler. Good morning.
    Thank you, Chairman Shuster, Ranking Member Rahall, thank 
you Congresswoman Miller. Thank you for your wonderful comments 
to the committee.
    I deeply appreciate the opportunity to testify on aviation 
and air traffic control as Congress begins work on 
reauthorization of the Federal Aviation Administration.
    And I am certainly pleased to speak on behalf of the 
Business Roundtable that is more than 200 CEOs of major U.S. 
corporations. From Kitty Hawk to the end of the 20th century 
the United States was considered the world's leader in 
aviation. Today our air traffic system remains the world's 
largest and safest. But sadly, as the chairman noted in his 
opening comments, it is no longer the most technologically 
advantaged, and it may no longer be the world's most cost-
effective.
    The Business Roundtable recently conducted an analysis that 
applied Canadian rates for air traffic control services to U.S. 
flight data. Preliminary results suggest that in aggregate, the 
Canadians are delivering services at a lower cost than the FAA. 
At a minimum, the next FAA authorization should seek to 
reaffirm and regain U.S. aviation leadership by fostering a 
more modern, efficient system, starting with air traffic 
control.
    Such a modernized system would produce significant benefits 
for all air travellers including the huge numbers who are 
traveling on business. Advanced technologies and procedures 
will enable more planes to land and take off safely on existing 
runways, reducing delays. More direct routes also equal shorter 
flights and more efficient operations with notable savings in 
staffing and fuel. Emissions and noise pollution would fall.
    With the modernized systems overseas sale of technologies 
developed and deployed in the United States would expand, 
reasserting U.S. aviation leadership. Like many other 
stakeholders, business leaders are concerned about the slow and 
uncertain pace of the modernization effort represented by the 
FAA's NextGen program.
    Numerous official reports document costs overruns--we just 
heard some of those from my colleague, General Scovel--delayed 
implementation of systems and led stakeholders to question 
whether we have the best model, not just for delivering 
NextGen, but also for the ongoing management and modernization 
of what used to be the world's most advanced air traffic 
control system.
    A few years ago I convened experts who identified 
challenges to aviation and they found problems start with 
funding unpredictable, unreliable, often inadequate funding 
streams are doing damage to long-term planning investment. Last 
year's sequestration with its furloughs of controllers and near 
shutdown of 149 contract towers is only the worst example.
    The second underlying problem, governance, the Air Traffic 
Organization answers to way too many disparate interests, 
agencies, and administrators.
    The third underlying problem is organizational culture. The 
culture needs to embrace innovation so modernization occurs 
continuously as technology advances. For an example of culture 
of innovation that works, look at AT&T. It happens to be the 
company chaired by my boss at the Business Roundtable, Randall 
Stephenson. The years we have been talking about NextGen, AT&T 
has gone through at least two generations of cellular 
technology, from powering your basic flip phone to 4G streaming 
video in today's modern iPhones that most of us have in our 
pocket.
    The last two decades have seen other countries restructure 
the way air traffic control is funded and governed. Australia, 
Canada, Germany, the United Kingdom have been among the early 
movers. These Governors determined that an air traffic control 
is a high-tech service business that can be funded directly by 
aviation users, in effect, the customers. More than 50 
countries have separated their air traffic control systems from 
their transport ministries, leading to arm's length regulations 
of air safety. In the U.S. the FAA's own management advisory 
council recently studied the same issues. Their final report in 
January of 2014 made three unanimous recommendations.
    First, remove all air traffic control funding from the 
Federal budget so that aviation users would pay directly for 
air traffic control services and allow that revenue stream to 
be bonded.
    Second, create a governing board of aviation stakeholders, 
not just to advise on technology decisions, but to actually set 
the priorities for management and modernization.
    Third, separate the operation of the air traffic control 
systems from the FAA safety regulator. This will establish 
independent arms-length safety regulation, the kind that 
currently applies to all the other actors in U.S. aviation.
    These three unanimous recommendations were made by experts 
like Paul Rinaldi, who you will hear from in a moment, and they 
are an excellent starting point for FAA reauthorization.
    Finally, it is important that the financial and business 
model for any new structure be sound, fully discussed, and 
broadly supported; hence, the appreciation for today's hearing. 
Next year's FAA reauthorization offers a critically important 
opportunity to advance NextGen, to restore our leadership in 
aviation, and to put management in the national airspace on a 
path to continuous modernization.
    Business Roundtable looks forward to working with you to 
achieve these important goals.
    Mr. Chairman, I have a more complete statement for 
submission to the record and appreciate the opportunity to do 
that.
    Mr. Shuster. Thank you very much for that.
    Mr. Engler. Thank you.
    Mr. Shuster. And next Captain Lee Moak, the president of 
the Air Line Pilots Association, International. Captain Moak, 
you are recognized for 5 minutes.
    Mr. Moak. Chairman Shuster, Ranking Member Rahall, and 
members of the committee, I am Captain Lee Moak, president of 
the Air Line Pilots Association, International. Thank you for 
the opportunity to represent ALPA's 51,000 members who fly for 
30 passenger and all cargo airlines in the United States and 
Canada, before the committee today.
    When it comes to issues of modernizing the airspace in the 
United States, contrary to what you are hearing previously, I 
am very happy to report that we are on the verge of becoming a 
success story and one that you can help us write. We have made 
considerable progress during very turbulent times, in spite of 
dealing with issues like sequestration and operating under 23 
short-term extensions.
    NextGen is a collaborative initiative involving industry, 
Government, and key users, including airline pilots and 
controllers, and technicians. The various system components 
they save time, fuel, emissions, and money while increasing 
safety, and I want to underscore that, while increasing safety.
    There is no question that our Nation's airspace needs an 
overhaul to prepare for the influx of passengers projected to 
arrive in our terminals and the continued growth of the cargo 
industry. And there is no question there is room for growth in 
our aviation industry. I would say that we agree on 95 percent 
of how to achieve that growth, but the 5 percent we disagree on 
lies in how to pay for it, and who pays for it. That is the 
real issue, a lack of commitment when it comes to dedicated 
Federal resources now to a problem we know is only going to get 
worse.
    We need leadership to set us on a path for continued 
infrastructure expansion, and airspace modernization so that we 
can better serve our customers, and maintain our position as 
the world leader in aviation.
    Continuing the recent tradition of kicking the can down the 
road will result in failure and like many of you in this room, 
I hate failure. ALPA believes that this committee can fill that 
leadership role, ensuring that FAA can count on the 
sustainable, long-term funding needed to get the job done 
right.
    However, for the aviation industry to succeed, this funding 
must come from a source that is separated from the constant 
jeopardy inherent in the reauthorization process. We simply 
cannot put the future of our Nation's airspace in the cross 
hairs of DC politics. After all, we are updating the largest, 
most complex, and safest air transportation system in the 
world, and that requires everyone to be all in.
    And up until this point, that hasn't been the case. Several 
years ago airlines invested approximately $100,000 per aircraft 
to install Controller-Pilot Data Link Communications Equipment, 
CPDLC, only for the FAA to cut funding for the program because 
the Congress couldn't support it. That put our airlines out 
millions of dollars and left them with useless equipment on 
aircraft. In fact, some of that--some of those airplanes are 
now getting parked in the desert with equipment that was never 
used. If our airlines invest in new equipment on our airliners, 
they have to see a return on investment; not a different plan 
from a different administration.
    Aviation industry stakeholders want to see that return on 
investment to pilots, controllers, airlines. We all want to 
operate in the 21st century; not the 1950s infrastructure we 
are trying to replace.
    While the current air traffic control system isn't perfect, 
performance-wise it is still one of the best in the world and 
it is consistently pumping out 97 percent capacity through the 
system. And in fact, I would caution that the current 
operational performance and costs of the U.S. system may not 
warrant an immediate need for a complete overhaul; namely, 
creating a standalone air traffic service provider similar to 
the NAV CANADA model which I have up here showing you a scale 
of that model. Pilots will continue to operate safely under any 
ATC structure.
    Again, I would, however, respectfully offer the NAV CANADA 
model needs a thorough investigation before anyone jumps to the 
conclusion that it is the answer here in the United States.
    And as I mentioned earlier, the U.S. national airspace is 
by far the largest, most complex airspace system in the world. 
The NAV CANADA model might not translate well to the U.S. 
system because it only covers roughly a quarter of the airspace 
and flights we manage. That is our east coast alone.
    And so if you see the issue here, what has worked well and 
seems completely manageable in Canada, might not even scale to 
our system's needs. We all know that our system has room to 
improve, but structural changes to the governance of the Air 
Traffic Organization will not serve the fundamental problems 
facing our industry. We first need to debate about reliable 
funding.
    Mr. Chairman, I have heard you say many times before, 
America invented aviation. We are the global leader. If we want 
to hold this position, we cannot allow Government policies, 
either through laws, regulations, or taxes, to put us at a 
competitive disadvantage to the rest of the world. We already 
pay 17 unique taxes, the most of any industry. I know you 
understand that, Mr. Chairman, because you introduced and 
passed legislation to make those 17 taxes more transparent to 
the traveling public.
    We thank you for that, but we all know that there is more 
work to do out of those 17 taxes. Some don't even go back to 
aviation. I am sure I speak for many of my colleagues here that 
are sitting on the panel when we say that we are fed up for the 
aviation industry being the piggy bank for Government programs 
that have nothing to do with aviation.
    And finally, that is why I am asking you to invest in the 
U.S. aviation industry. I am here to underscore that the Air 
Line Pilots Association is committed to working together to 
make the tough choices necessary to ensure our aviation system 
remains the best, the safest system on the planet, and with 
your leadership, sir, stable funding can be held and we will 
move forward. Thank you.
    Mr. Shuster. Thank you very much, Captain Moak and all I 
can say is amen.
    With that, Mr. Baker, the president and CEO of the Aircraft 
Owners and Pilots Association.
    Mr. Baker, you are recognized for 5 minutes.
    Mr. Baker. Chairman Shuster, Ranking Member Rahall, 
committee members, thank you for inviting me to testify today. 
My name is Mark Baker and I am the president and CEO of the 
Aircraft Owners and Pilots Association, and AOPA represents our 
members as aircraft owners and private pilots concerning the 
economy, safety, utility, and popularity of flight in general 
aviation aircraft.
    Mr. Shuster. Will pull your mic up closer to you?
    Mr. Baker. This one here? This one is not working.
    Mr. Shuster. Captain Moak, can you shift over there.
    Mr. Moak. Happy to work together.
    Mr. Shuster. OK. Thank you.
    Thank you.
    Mr. Baker. The general aviation industry is under stress 
and needs the FAA to enact policies and procedures that will 
support GA growth. Over the past decade, the number of private 
pilots has fallen by more than 6,000 each year. In addition, 
today's GA fleet is on average more than 40 years old. The 
number of single-engine piston-powered aircraft being produced 
in the U.S. has fallen dramatically, from more than 14,000 
produced in 1978 to just 674 in 2013. Many of the stressors on 
the industry are compounded by outdated FAA processes that are 
costly and cumbersome.
    A long-term reform-minded FAA reauthorization measure is 
needed. As the committee develops a multiyear FAA 
reauthorization, we encourage the inclusion of provisions that 
will give the FAA the direction and the tools needed to improve 
its internal processes. The regulatory and certification 
processes used today may have been needed 30 or 40 years ago, 
but they simply cannot keep pace with today's rapid changes and 
improvements in technology. Changing these processes in ways 
that lower costs, reduce bureaucracy, and improve safety will 
help general aviation grow. These should be our collective 
goals.
    I would like to provide three examples of areas that we 
believe require a different approach from the FAA: medical 
reform, aircraft certification and retrofit, and the FAA's ADS-
B 2020 mandates.
    The third-class medical reform is long overdue. Nearly 3 
years ago, AOPA and others filed a petition requesting an 
expansion of the sport pilot medical standard, a standard that 
the FAA had put in place more than a decade ago. This standard 
allows sport pilots to fly without obtaining a third-class 
medical exam, which is a cursory medical check that is less 
comprehensive than an annual physical.
    The sport pilot typically flies small, light general 
aviation aircraft that are limited to two seats. The FAA's 
decision to eliminate the third-class medical for these pilots 
was the correct one. Over the past decade, it has not had a 
discernible impact on safety and has helped grow the sport 
pilot segment of general aviation. A conservative estimate 
indicates that expanding this standard would save private 
pilots in excess of $24 million a year to each one of these 
pilot groups.
    Today, other than sport pilots, all general aviation pilots 
under the age of 40 must take a medical exam every 5 years. 
Pilots over the age of 40 need an exam every 2 years. In 
between exams, pilots self-certify their own fitness to fly. In 
addition, every 2 years pilots are required to undergo a flight 
review with an FAA certified flight instructor who must 
determine a pilot's cognitive ability to fly.
    Again, we believe the 10 years of experience we have with 
the sport pilot standard demonstrates that it should be 
expanded to a larger segment of general aviation pilots.
    The FAA and the Department of Transportation are currently 
reviewing a proposed rule. In addition, legislation has been 
introduced by both the House and the Senate. The bills combined 
have nearly 180 bipartisan cosponsors, many of whom serve on 
this panel. We thank you for your vigorous support. Expanding 
this standard to more pilots is a top priority for AOPA. We 
look forward to working with this committee in the next 
Congress on this issue.
    Certification and regulatory reform are also urgently 
needed. Since 2008, the aviation industry and FAA have been 
working to streamline and simplify part 23 certification 
standards for the manufacture and modification of new aircraft. 
To that end, this committee shepherded the Small Airplane 
Revitalization Act through Congress, and the bill was signed 
into law last year.
    To fully realize the benefits of increased safety and 
reduced certification costs, the regulations, orders, and 
policies for retrofitting existing aircraft with new equipment 
must also be streamlined and transformed. These realities are 
highlighted by the fact that the general aviation fleet 
averages more than 40 years old and most aircraft rely on 
decades-old technology. Widespread availability of modern 
equipment can make flying much easier, safer, less expensive, 
and give the industry a much needed boost at every level.
    While the FAA's desire to create a ``gold standard'' for 
safety is admirable, in practice, this approach has the 
opposite effect. Allowing products that offer incremental 
safety improvements to reach the market more quickly would 
lower costs, simplify flying, and ultimately improve the safety 
for folks flying today and into the future.
    The FAA's ADS-B mandate is too expensive. The FAA has set a 
standard of January 1, 2020, for aircraft to have ADS-B Out 
equipment in order to keep flying in airspace near large cities 
and airports. However, the mandate standards were designed for 
commercial airliners and the resulting equipment is just too 
costly for GA owners.
    More than 81,000 of the 188,000 certified piston-powered 
aircraft on the FAA registry are worth $40,000 or less, and 
those aircraft have a weighted average value of about $25,800. 
That puts the $5,000 to $6,000 minimum cost to install ADS-B 
Out beyond the reach of many owners.
    Without changes, we will see these airplanes parked in 
fields or reduced to limited flying, further accelerating 
general aviation losses and seriously damaging the thousands of 
small aviation businesses nationwide.
    We believe that technological advances in portable, 
noncertified equipment could point to a strategy that would 
lower the cost of compliance with the FAA's mandate. We look 
forward to working closely with the FAA and industry to make 
low-cost solutions available so all segments of general 
aviation can participate in a modernized air traffic system.
    In conclusion, we believe the future of general aviation 
depends on bold and transformational reforms in the 
certification and regulatory processes at both the FAA and DOT. 
We do not believe the FAA has a funding problem. In fact, this 
committee and Congress have funded the FAA generously, 
increasing the FAA's budget by more than 500 percent since 
1980, even though the number of agency employees has decreased.
    The system of funding the FAA through excise taxes 
collected on fuel, rather than a user-fee system, has proven 
both efficient and effective. And the FAA's nearly $16 billion 
budget gives the agency sufficient resources to make needed 
changes in the way it oversees general aviation. The challenge 
facing the FAA is to use those resources to meet the needs of 
stakeholders and improve efficiencies.
    We need the FAA to embrace a system that can keep up with 
rapidly changing technology; that is comfortable with timely, 
economical, and incremental safety improvements; and that will 
actually work to reduce risk today for hundreds of thousands of 
general aviation pilots. When pilots, industry, and the FAA 
work together, we see positive results for general aviation.
    On behalf of AOPA's members, we appreciate your leadership 
on these important issues. Thank you for the opportunity to 
appear.
    Mr. Shuster. Thank you, Mr. Baker.
    And now I will turn to Mr. Nicholas Calio, president and 
CEO of Airlines for America. You are recognized for 5 minutes.
    Mr. Calio. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, Airlines for 
American and its members appreciate the opportunity to 
participate in this hearing on the operation and modernization 
of our Nation's airspace system.
    The issues surrounding modernizing and operating our 
system, are critical of the future of U.S. aviation, and the 
future growth of our economy. At stake are whether you and your 
constituents can get to your destinations faster, smarter, and 
in a more environmentally friendly way.
    Mr. Shuster. Nick, can you get closer to the mic, I am 
sorry.
    Mr. Calio. I am already standing up, Mr. Chairman.
    At stake is whether you and your constituents can get to 
destinations faster, smarter, and more efficiently. Aviation is 
5 percent of our gross domestic product. The question before 
this committee is really pretty simple. Can we move people and 
products in a more efficient manner with a more modern system? 
There seems to be a little disagreement that we can do so. 
Three Federal commissions and reams and reams of testimony, 
congressional testimony, as well as multiple speeches by 
multiple stakeholders over a year all agree to the point.
    So the question becomes: How do we get that system and what 
does it look like? Here, the clarity of the goal starts to get 
complicated. Its achievement starts to get complicated. While 
Chairman Shuster, you have called for transformational change, 
and we agree with it, different stakeholders have differing 
interests. And my guess is that this committee is going to have 
significant resistance to any kind of significant potential 
changes.
    An undeniable record of missteps, cost overruns and 
equipage investments gone bad exists, and has been detailed 
before this committee. It has been detailed by GAO reports, by 
the inspector general and others. Some of that record as well 
as some particular airline disappointments are detailed in our 
written testimony, and I commend that testimony to you.
    So the record begs a series of questions that need to be 
asked in light of the historic opportunity that this 
reauthorization bill presents. Does the United States have the 
best governance and funding structure in place to deliver the 
most efficient, modern air traffic control system? Have the ATC 
models used by other countries enhanced safety and efficiency, 
and if so, can their best attributes be applied to our system 
here without it adversely impacting safety?
    If yes, would the adoption actually improve our system 
which is a key question, obviously, and if so, at what cost and 
to whom? Asking these questions is not a criticism of the 
current FAA leadership. They have been advancing the ball. 
However, it is simply a need to ask and examine these questions 
given the checkered history of progress and, frankly, the 
stakes were simply maintaining the status quo.
    A4A has an open mind on these questions. To that end, we 
have engaged independent aviation experts to create a fact base 
and see if the facts lead us to any kind of conclusions. Our 
study is benchmarked in the financial, operational, and 
governance performance of USATC system against models used by 
other countries. It is evaluating the risks and opportunities 
for specific elements of reform on the U.S. system and 
developing USATC options, highlighting the benefits 
economically and implications for NextGen, as well as potential 
governments' impact of reform. The work is incomplete, but some 
basic observations are emerging.
    First, the difficulties U.S. modernization efforts have 
encountered in the past seem to consistently come back to 
Government structure and funding questions.
    Next, the commercialized ATC model present three 
alternatives to consider represented by, for example, the 
United Kingdom which has a public-private partnership, and NAV 
CANADA already spoken to, which is a completely independent 
commercial corporation, and then Germany, which is an 
independent, Government-owned corporation.
    All three models engage airspace users in a--in 
decisionmaking to a greater and more structured degree than we 
do here. All three models have improved safety and efficiency. 
And all three systems--all three models have implemented long-
term modernization programs pretty smoothly.
    The bottom line, we have a good aviation system. We have 
the best pilots. We have the best air traffic controllers. 
Frankly, we can do better. It is clear that we don't need 
another Federal Commission On this issue. What we do need is 
for the Congress and all major stakeholders to keep an open 
mind and take a clinical, fact-based approach to looking at 
possible solutions, including the models in other countries.
    If we determine that significant reforms are not necessary 
or, frankly, are not politically achievable, then we still need 
to examine what we can do about the bottlenecks and 
difficulties and obstacles in the current system and admit that 
we might just find some answers outside the U.S. and apply them 
here.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you. And, now, we will turn to Mr. Paul 
Rinaldi, president of the National Air Traffic Controllers 
Association. You're recognized for 5 minutes, Mr. Rinaldi.
    Mr. Rinaldi. Thank you, Mr. Chairman, for the opportunity 
to testify in front of the committee today is truly an honor. 
We all have a stake in the National Airspace System. It is an 
economic engine. It contributes $1.5 trillion to our gross 
domestic product every year and provides 12 million American 
jobs. NATCA appreciates the committee for its outreach in the 
industry in order to better understand the issues/problems in 
which--in the National Airspace System.
    This committee is doing it the right way. Identify the 
problems and then collectively, we can develop the right 
solution. But we must make something clear. Any change we make 
needs to be accomplished with the precision-like approach so 
that we don't interrupt the day-to-day operation of the 
National Airspace System.
    Currently, we run the largest, safest, most efficient, most 
complex, most diverse airspace system in the world. Our system 
is incomparable, unequaled, and unrivaled by any country in the 
world. The United States airspace system and the FAA is 
considered the gold standard in the world aviation industry. 
And, yet, we come to a reality, we need to change.
    The globalization and innovation are driving dramatic 
changes in the aviation industry. Our current system has served 
us well to this point. However, we face many challenges in 
responding to the problems of an unstable budget, the inability 
to finance long-term projects, competing stakeholders' 
interest, the inability to grow the National Airspace System 
for new users, and legislative priorities. Every stakeholder in 
the National Airspace System should work together to ensure 
that the United States continues to be the world leader.
    Without change, we face continued funding uncertainty. We 
all remember the disruptions that we experienced in 2013 with 
sequester. In March, the FAA scaled down all modernization 
projects. They looked at closing 238 air traffic control 
towers, and they tried to close 149 of them. They tried to 
reduce services across many airports in this country. They 
stopped ATC hiring for the full year, which is still causing a 
rippling problem today. They furloughed air traffic 
controllers, causing rippling delays through our system. They 
went to a fix-on-fail maintenance philosophy and stopped 
stockpiling critical parts for essential equipment, all to meet 
the budget restrictions of sequester.
    Currently, the FAA is working on what reductions they need 
to do, starting in October of next year as sequester comes back 
into effect. This just can't happen again. This is no way to 
treat this economic engine and no way to treat our National 
Airspace System.
    You see, without change, we will continue to struggle to 
develop, train, implement the NextGen initiatives. Currently, 
NATCA and the FAA are working collaboratively, along with other 
stakeholders on the NextGen Advisory Committee. We are 
implementing and modernizing projects and deploying new 
equipment procedure across the country. In order to keep pace 
with these initiatives, we need to be properly funded, and the 
FAA needs to be adequately staffed, which can only happen with 
a stable, predictable funding system. We will continue to 
struggle to maintain--without a change, we will continue to 
struggle to maintain proper resources and staffing for our air 
traffic control facilities.
    The air traffic controllers are the backbone to the 
National Airspace System. We should never short-staff our 
facilities. The air traffic controllers maintain a safe, 
orderly flow of aircraft across this country.
    In addition to that, they are the subject matter experts 
that help us develop, implement, and train the NextGen 
initiatives. And they train on-the-job training for every new 
hire that comes into the system. This requires us to be 
appropriately staffed. An understaffed facility can barely keep 
all the positions open to run the day-to-day operations safely 
and efficiently. Nevertheless, they are going to have to train 
our controllers on new NextGen technology and equipment. 
Understaffing our facilities will delay modernization projects, 
and we will be responsible for the overcost runs.
    Mr. Chairman, our National Airspace System is an American 
treasure. We cannot treat it like we did in 2013. Aviation is 
uniquely an American tradition. We need to make changes to 
secure a stable funding system, a proper governance so that we 
can continue to be the world leader, which will allow us to 
grow the aviation system and not shrink it. It will allow us to 
integrate new users, such as the UAV community and commercial 
airspace programs properly. And it will give us the competitive 
edge to continue to be the world leader in aviation.
    Mr. Chairman, I thank you for the opportunity to testify in 
front of you today. I look forward to answering any questions 
you may have or the committee may have. Thank you very much.
    Mr. Shuster. Thank you very much, Mr. Rinaldi. Thank all of 
you for being here today.
    We have a number of Members that are in the queue for 
questions. Our practice, on the Republican side, whenever the 
gavel goes down, if you are here when the gavel goes down, you 
get first in the queue. Because there are so many Members, I am 
going to forego my questioning until the end and I will, first 
of all, yield 5 minutes to Mr. LoBiondo, and I will be brutal 
with the gavel in the 5-minute rule. Because if everybody shows 
up, we are going to be here for a long, long time.
    So, Mr. LoBiondo, 5 minutes.
    Mr. LoBiondo. Thank you, Mr. Chairman. I don't want you to 
be brutal with me. Thank the panel for being here.
    I think most of you know that Rick Larsen and myself have 
really focused in on NextGen and the implementation and how 
this is all coming together. So what I would like to know, 
starting with you Mr. Scovel, we tasked the FAA with creating a 
joint industry and FAA implementation plan to begin delivering 
short-term NextGen benefits to our airspace and its users. In 
October, we received a copy of that plan. Can you tell us what 
you think of the NAC priorities for NextGen and the FAA's 
implementation plan to address this?
    Mr. Scovel. Thank you, Mr. LoBiondo. Certainly, we are 
aware of the NAC's recommendations to FAA and FAA's plan in 
October. And as you may remember, this committee has tasked my 
office to review FAA's plans for moving NextGen forward, 
especially in the near term. So FAA's commitment to the NAC 
recommendations has been vitally important, and we are greatly 
encouraged by those. As the committee knows, from reading the 
NAC report and FAA's response, the NAC recommended a greater 
commitment to performance-based navigation, which our office 
has endorsed for a long time now; a commitment to surface 
operations so that aircraft on the ground can move around the 
airport surface in a more efficient and effective manner; as 
well as DataComm, which FAA anticipates to implement in 2019. 
So those are the three main recommendations from the NAC which 
FAA has endorsed and has begun to move out on.
    We would put an asterisk for the committee's consideration 
next to performance-based navigation. This has been a priority 
for the airline industry for a long time. It is one that will 
allow them to move their aircraft in an efficient way and will 
provide fuel savings as well. But FAA has had problems in 
developing those procedures and getting them certified. So if 
those problems with delays in the past were to continue in the 
future, the objectives for near-term success, according to the 
NAC's priorities, may not be realized.
    Mr. LoBiondo. Thank you. Mr. Calio, same question.
    Mr. Calio. Thank you, Mr. Chairman. I think that the--I 
would agree, performance-based navigation has been one of our 
key priorities. We helped develop the priorities that the NAC 
suggested. We think they are critical. The whole point of them 
is to move to some near-term benefits so that the stakeholders 
can see some benefit from investments that have to be made. 
Some of it is going painfully slowly, despite best efforts.
    PBN is a key there. We have moved very slowly. We are going 
basically city by city, metroplex by metroplex, with not a lot 
of--showing for it. A lot has to do with the procedures being 
developed. We have--you know, we have the equipment on the 
aircraft to do it. But the process--or the procedures to get 
those planes to use it is not really happening very quickly. 
And there is a whole variety of reasons, some of which are 
detailed in our written testimony. It is a matter of us being 
able to fly, a matter of the controllers being able to use them 
in different places.
    So if we are going to do it, it has got to be more scalable 
across the country, otherwise we are just going to take years 
and years to get it to work. Meanwhile, we have got other 
technologies that are being mandated that are not harmonized 
with others for which the cost benefit has not been reviewed. 
So PBN would be the quickest way to get quick results.
    Mr. LoBiondo. Mr. Rinaldi, sorry you only have a minute, 
but I would like your take on this one, too.
    Mr. Rinaldi. We were part of the NAC initiatives. We--we 
agree with the initiatives. I will tell you, you know, changing 
major airspace and flows in and out of metroplex is not an easy 
task. It is not something we can just develop in the--in a, you 
know, sterile room and roll it out. It has to be tested and 
developed and continued tested with pilots and then tweaked. 
You know, once we implement it, we have to go back and retest 
it and making sure we are capturing the efficiencies we want to 
do. It is not an easy thing to do. It sounds like an easy thing 
to do but certainly not.
    The one thing that will slow us down is the unstable 
funding. You know, the second we have to fall back and we don't 
have the funding to continue these initiatives, we stop all 
modernization projects and we just focus on running the day-to-
day operation, the safe and efficient flow of airplanes.
    Mr. LoBiondo. Thank you. And Chairman Shuster is going to 
make sure we have stable funding.
    Mr. Shuster. That is correct.
    Mr. LoBiondo. Thank you.
    Mr. Shuster. With your help, Mr. LoBiondo. With that, I 
recognize Ranking Member Larsen for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Rinaldi, you discussed some of the--you have discussed 
some of the discussion about ATO reform and so on. What 
reservations would the air traffic controllers have regarding a 
change in the Air Traffic Organization?
    Mr. Rinaldi. Obviously, any time you make any change to a 
system that is as large as this and is as efficient as we are 
at this point, we don't want to disrupt the day-to-day 
operation. And we can't lose focus that currently we are 
running the world's safest, largest, most complex, most diverse 
system in the world.
    So the changes that--if we were going to make changes, we 
have to be very precision-like, do it very methodically to 
ensure that we do not interrupt the safe and orderly flow of 
airplanes in the United States.
    Mr. Larsen. Well, Captain Moak, a similar question. You 
laid out some broad principles about your concerns. What 
specific thing--do you have specific items you would like to 
help us understand with regard to separating air traffic 
functions out from the FAA?
    Mr. Moak. Just a couple of things. First off, you know, we 
are having a----
    Mr. Larsen. Get closer to the mic.
    Mr. Moak. We--you know, this is kind of a high-class 
problem in the United States. If you read the papers and you 
catch the news, you know they are having accidents all over the 
world. But in the United States, we have the safest airspace in 
the world. But we don't stop there. We want to improve that. We 
want it to be more efficient. We want to save fuel. And there 
is other things we want to do, but we are doing that with the 
idea that we have the safest airspace in the world with what 
was said earlier, best controllers, best pilots, best 
procedures.
    So the idea that we are just going to go to another system, 
OK, I think we should take pause there and think through it. 
Now, the current system is performing quite well operationally. 
Our airlines have been through consolidation over the last few 
years. They are performing quite well. And so it gives us the 
ability to step back, look at it, modernize it. That is 
important, very important. And all you have to do is look at 
the DOT Bureau of Transportation statistics. And now when they 
report out of different metrics for the airline industry, they 
are much improved.
    On the issues of PBN, we can do better. The controllers are 
trained. The pilots are trained. The airlines that Nick 
represents are equipped, and we have just got to keep at it. 
And it is--it is difficult to bring each one online, but when 
it is brought online, it is truly remarkable.
    So I would say proceed cautiously with throwing everything 
out. And, again, I want to underscore the whole thing about 
stable funding going forward.
    Mr. Larsen. Yeah. Thanks.
    Mr. Calio, you are doing a report. Mr. Engler--Governor 
Engler mentioned a report. MITRE is doing a report. You 
mentioned all the reports that have been done, a lot of 
reports. It seems to me that the timing of these, if we are 
going to be moving forward in any way, shape, or form, whether 
it is a larger reform or even management reforms or individual 
reforms, things have to come to a head pretty quickly if we are 
going to be moving forward here by the end of--by September 
2015.
    So I am hearing a tapping. That is not you, Mr. Chairman? 
Thank you very much. You are just inpatient. It got--generally.
    Have you thought through the timing for us?
    Mr. Calio. Yes. Yes, we have. We will be done shortly and 
we will be in to brief you. We know that you need the material. 
And we--from our perspective, in order to develop a position, 
we need to know what the facts are. And again, we are trying to 
do it in a dispassionate fashion so that we can take a look at 
our system. We are not suggesting going ahead with major 
changes. What we are trying to do is see if they would be 
worthwhile, whether they can be made and if they can, what the 
impact would be.
    Mr. Larsen. Yeah. OK. Thanks.
    And, Governor Engler, have you all, in the BRT, thought 
through that flip-the-switch moment, that is, when you move 
from one model to the next model as you are thinking through 
the ideas that you are presenting here?
    Mr. Engler. Well, I think that is part of the--part of the 
conversation. And, clearly, even under congressional mandate, 
there have been changes in the--you know, in the creation of a 
chief operating officer responsibility of the ATO itself. There 
have been iterations coming along. So I certainly would echo 
the comments made, the safest, largest, don't--don't mess with 
the way it works. But you do have a challenge, I think, inside 
FAA that we have heard a lot about--from other stakeholders, 
about you sort of got this technical buildout proposition. And 
I mentioned the idea of, you know, our focus on funding. That 
is very important. And the key decisions to be made, even the 
role--one of the weaknesses we have known in the Federal budget 
for a long time, the lack of a capital budgeting process. And 
so the--the attractiveness may be being able to bond this, get 
this, fund it, and get it built out without financial 
interruption. Let that happen.
    At the same time, there is a tremendous amount of work 
inside the FAA in the modernization of procedures and practices 
and the kind of training and vetting that has been discussed 
here today. So it seems to me there is plenty of work for 
everyone. That flip-the-switch moment, I think, is not so much 
a disruptive thing. I think it is a transition that takes 
place. So I think that takes time, and I don't think it is 
anything abrupt and certainly can't be anything that disrupts 
the functioning of what has worked well.
    Mr. Shuster. Thank the gentleman.
    With that, I recognize Mr. Massie for 5 minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Baker, from your written and spoken testimony, it is my 
understanding that you are saying that the FAA's approval 
process could be making general aviation more risky or less 
safe. And can you explain how that is? I mean what needs to 
change about the approval process? Is it taking too long to get 
technological improvements integrated into general aviation 
industry?
    Mr. Baker. Yeah. That is exactly right.
    The idea that you have an aircraft that is 40 years old is 
the equivalent of having your car with an AM radio. The 
certification process to put an FM radio in there could take 
years, millions and millions of dollars. And the industry is 
saying it costs too much, it takes too long, and is not willing 
to put those upgraded products in these aircraft.
    Situational awareness in the aircraft is still the number 
one issue that leads to accidents. Today, the iPad has added 
more value to situational awareness than almost anything else. 
But if you were to try and install that type of equipment on an 
aircraft today, it would take millions and millions of dollars 
to try and do that for the industry, and it would take years to 
get it done. So there should be an expedited process, because 
we have experimental aircraft today--they have great 
autopilots, great gas gauges, great situational awareness, and 
it is done at a very low cost. So the systems have moved very 
quickly, and the FAA has not moved in that process yet. For 
example, in the new aircraft today, it costs hundreds of 
thousands of dollars, but you can get it done.
    Mr. Massie. So they need to be moving quicker. Is there 
anything in this FAA reauthorization that we could do in 
Congress to encourage that?
    Mr. Baker. Yeah. We think that there could be an 
opportunity to put some of these older aircraft into a legacy 
program or classic program to try and get some of these things 
expedited, these safety items, not changing the power plant and 
not changing the wing, but putting a good panel in some of 
these older aircraft, make it safer, make it easier for people 
to access the airspace. It could be done.
    Mr. Massie. So while we are on the topic of technological 
improvements, the ADS-B adoption in general aviation, what does 
it cost? What is the least costly entry point for somebody in 
general aviation to become compliant with the 2020 standard?
    Mr. Baker. So for the ADS-B Out, which gives the pilot in 
the cockpit no information--it doesn't give you any traffic or 
weather information, it just pings out, is about $5,000 to 
$6,000 is what we hear, installed today, on the aircraft that 
many are worth less than $25,000.
    Mr. Massie. So it is over 20 percent of the cost----
    Mr. Baker. That's correct.
    Mr. Massie [continuing]. Of the aircraft as represented.
    Mr. Baker. You get no advantage.
    Mr. Massie. So is it reasonable to expect some of these are 
going to be parked in hangars or boneyards and pilots who are 
pilots now aren't going to be flying because of this?
    Mr. Baker. That is the risk.
    Mr. Massie. So there needs to be a lower cost solution. 
What is your organization doing to promote this lower cost 
solution?
    Mr. Baker. We are currently working with GAMA, General 
Aviation Manufacturers Association, and the FAA to say, is 
there some other type of portable device that could be 
recognized? Now, remember, the iPad wasn't even invented when 
ADS-B came out. Is there some type of portable, lower cost 
device that could be like our cell phone that is pinging out at 
an adequate level for these small general aviation airplanes? 
Remember, the ADS-B certification calls for 9 feet of 
accuracy--do we really need that for a little two-passenger 
airplane?
    Mr. Massie. Got you.
    General Scovel, while we are on the subject of technology 
here, the FAA seems to be behind on issuing rulings on drones 
and integrating, I mean, UAS, UAV whatever we want to call 
them, integrating them into the airspace. How far behind are 
they right now?
    Mr. Scovel. Thank you. They are behind, and they are behind 
the mandates established by Congress in the last 
reauthorization from 2012.
    Mr. Massie. So when we write this authorization, we should 
say ``We really mean it this time.''
    Mr. Scovel. Well, yes. Absolutely. And it would certainly 
help everybody if the agency listened.
    FAA was slow in designating its test sites. Six of them 
were finally designated, pursuant to the congressional mandate. 
But we have found that the agency's plans to develop data and 
to learn from the results that accrue from operations at these 
test sites have not been prepared to the agency's satisfaction 
and certainly not to the needs of the burgeoning industry. This 
also includes gathering safety data from UAS users currently in 
the system and from the Department of Defense. FAA has a lot to 
learn, a long way to go yet.
    Mr. Massie. Well, I wish they were here today to defend 
themselves or to give me an answer to the next question. But in 
your estimation, when do you think they will give us some 
rules? I had a constituent--on behalf of a constituent, I sent 
a letter to the FAA 3 months ago just asking them to point me 
to the rules or what rules exist, and I still don't have a 
response to that letter. But when do you think they might come 
up with some rules? They are spending the money, I understand.
    Mr. Scovel. Yes. The so-called small UAS rule has been 
promised by the end of this year. I am not sure what kind of 
UAS your constituent may be interested in operating. But if it 
is a small UAS, I would say stay tuned, see what FAA can 
produce by the end of this year.
    Mr. Massie. Well, it sounds like--Mr. Baker kind of hinted 
at an idea that could help us with drones. The accuracy, maybe 
we could relax some of the rules for accuracy.
    Yes, Captain Moak, would you like to speak on that point?
    Mr. Moak. Yeah. There is one--one point, I think, that is 
being missed here. OK. In commercial aviation, OK, to keep it 
safe and keep our customers, our passengers safe, we need to 
know where all the planes are.
    I am confident, working with Mark and AOPA, that we are 
going to be able to achieve that. But on the points that are 
made down here, I think, I couldn't disagree more with the 
analysis coming up.
    We have to be using the same principles, a certification of 
the aircraft, the remote piloted aircraft, the drone, the 
operator, and the people that are operating them as we do for 
airlines so that we have the same safety.
    Mr. Massie. My time has expired. But let me--let me agree 
with you.
    Mr. Moak. All right. We have to follow the same.
    Mr. Massie. Look, I--having no rules doesn't benefit the 
air traffic----
    Mr. Moak. Exactly.
    Mr. Massie [continuing]. Controllers, the commercial 
pilots, the general aviation pilots. Everybody is put at risk 
when there are no rules because the rest of the world is 
leaving us behind and you have commercial entities who are 
being encouraged or they encourage themselves to break the 
rules that don't exist. And you hear anecdotal stories of near 
collisions and whatnot. So I think it is incumbent upon us to 
get these rules so that everybody benefits.
    Thank you, Mr. Chairman. My time has expired.
    Mr. Shuster. Thank you, Mr. Massie.
    And with that, I recognize Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Perhaps a few observations I would like the panel to think 
about: First off, you know, the biggest problem relates to 
budgets, money sequestration, all of that. This year, 83 
percent of all FAA operating and acquisitions is being paid for 
out of the trust fund. So you could look at it and say, well, 
we have got a 17-percent problem. If the trust fund can cover 
100 percent, we make it mandatory spending, then, we are going 
to have these stupid issues with shutdowns and sequestration 
and all those sorts of things in the future. That would help a 
great deal.
    Secondly, I really want people to recommend improvements to 
FAA procurement. They are worse than the Pentagon. Now, how do 
we fix that? You know, it is always a moving target. We never 
get them to end up at a point with something that is going to 
work, too many change orders. I would like people to think 
about that.
    We have a dispute over ADS-B In and Out schedules. We have 
a ground system, we have a mandate. Europe has a mandate. They 
have no ground system. Why can't we harmonize those things two 
things and say Europe and the United States ought to move 
together. We have already worked on harmonizing the 
electronics. Why can't we harmonize the schedule for adoption 
so that there will be real benefits to people, both in Europe 
and the United States of America? I don't know why. I would 
love to hear more--more about that.
    And then, you know, on air traffic control, I--granted, a 
lot of my information is somewhat dated, but I went through a 
vigorous debate when I was ranking member on the Subcommittee 
on Aviation with Mr. Mica in 2006 on this issue, and I didn't 
find that there was a safer system in the world. In fact, just 
before we had that debate, we had a mid-air collision which 
killed people in Europe because they were understaffed, and the 
one person on duty was off somewhere doing something. You know, 
that is--that is an issue.
    Secondly, when I looked at the productivity issues, we are 
virtually identical with Canada. And, you know, so, again, I 
think making major changes there is a steep slope. And we--but 
I am willing to have a thoughtful discussion about that.
    And, now, I will actually get to a question, which will be 
directed principally to Mr. Rinaldi. You know we have got to 
staff up. We are going to have a lot of retirements. Other 
policies are forcing even more people to consider early outs. 
And I read in your testimony--and, again, this is a question, 
what is with the FAA? Why do you take people who have just 
graduated from the Academy and send them to the highest level 
facilities and, basically, engender a high failure rate? And 
what is the--what could the rationale or advantage be? And do 
you think really we could have more retention and better 
trained controllers if we change that?
    Mr. Rinaldi. Great question. And the simple answer is yes. 
We could have a better system and retain controllers if we--can 
you hear me?
    Mr. DeFazio. It cut off.
    Mr. Rinaldi. How about now? Can you hear me now?
    How is this? No. All mics.
    Mr. Shuster. I don't have any power? Do I have power?
    Mr. DeFazio. I have power. I got power. Do you know? Good. 
All right.
    Mr. Rinaldi. Hello.
    Mr. DeFazio. There you go. All right.
    Mr. Rinaldi. OK. It is a great question. And, yes, we could 
retain more controllers if we sent them to the lower level 
facilities and let them develop and hone their skills, than to 
send them to the large, busy, complex TRACONs that we have. Our 
busy TRACONs are struggling with staffing right now, because it 
has been an FAA way to take it somebody freshly new out of the 
academy and then send them to an Atlanta, a New York, or a 
Chicago and, you know, within, you know, 6 to 8 months, they 
are unsuccessful and they send them to lower level facilities.
    We have tried working with the agency for about 2 years now 
to develop a real process to develop to move the controllers at 
a lower level facilities where they are honing and developing 
their skills so they can maintain the ability to do it at a 
high level, like, a New York or Atlanta or Chicago.
    We are not there yet. It is--you know, we call it ``FAA 
speed'' sometimes. We should have been done with this about a 
year ago because the new hires that are coming out of the 
academy----
    Mr. DeFazio. What--what is so hard about it?
    Mr. Rinaldi. Well, you are going to have to ask them what 
is so hard about it.
    Mr. DeFazio. OK. All right.
    Mr. Rinaldi. We have some ideas. It was a drawn-out 
process. And we thought that--well, we thought we had a good 
plan and it is just--it is taking a very long time to implement 
it.
    Mr. DeFazio. OK.
    Mr. Rinaldi. But I--You know, when you--when you take 
somebody straight out of academy and you send them to a busy 
TRACON, they are not--they don't have the training program to 
teach them from--from zero----
    Mr. DeFazio. Right. No. I have sat there. I have watched 
those screens. I couldn't do it. I mean, I wouldn't even begin 
to think I could do it.
    Mr. Calio, do you want to respond to the idea about why not 
have harmonization in terms of the schedule with Europe on ADS-
B? Would that eliminate some of the concerns of the airlines?
    Mr. Calio. It would not eliminate all of our concerns. This 
is a classic case of the FAA embracing the standard before they 
have reviewed the cost benefits of it and made the business 
case for it. As I said during my earlier testimony, we have 
made a lot of investments. We have equipment on the airplanes 
we can't use now. Now it is mandated that we get more 
equipment; and we don't know how it will work, whether the 
standards will change, whether the equipment will change. So 
harmonization is one part of it, but actually making it work 
and making sure there is a business case to be made for it is 
critical. And if you go back through all the cost overruns and 
all the failures and hiccups here, that is pretty consistently 
one of the problems. So it has got to be part of the process of 
how you get to where you are, where you're just going to say, 
``OK. Use this equipment and I will use this equipment.''
    Mr. DeFazio. Back to the procurement issue.
    And, Mr. Rinaldi, I mean, as I understand ADS-B, we are 
going to get--do you think it is really critical that we have 
updates in real-time, as opposed to every 7 or 8 seconds? Is 
this going to make--which is what I understand. Because you 
already have transponders.
    Mr. Rinaldi. Well, the information--more accurate 
information and more timely information, especially in the 
interim environment where you can get, you know, constant en 
route update of airplanes moving at a very high speed is very, 
very valuable. At the lower level activity, as Mr. Baker was 
talking about, I am not sure that there really is a bang for 
our buck there, so to speak.
    Mr. DeFazio. OK. Thank you. Thank you. My time has expired. 
Thank you, Mr. Chairman.
    Mr. Shuster. Mr. Graves is recognized for 5 minutes.
    Mr. Graves. Thank you, Mr. Chairman.
    And the first question is for Inspector General Scovel. In 
your recent ADS-B audit report, how many commercial and general 
aviation aircraft are going to be affected by the--you know, 
with the update?
    Mr. Scovel. Thanks, Mr. Graves. By our account--and it is 
an estimate--220,000 general aviation aircraft are subject to 
the mandate. About 18,000 commercial aircraft as well.
    Mr. Graves. Does that include the entire existing--existing 
fleet?
    Mr. Scovel. Virtually. Yes, sir.
    Mr. Graves. Is the number changed or do you anticipate them 
changing any?
    Mr. Scovel. Oh, certainly. They will move up and down. But 
we believe that, between now and 2020, those numbers will hold 
generally firm. And that is the problem, which some of my 
fellow witnesses have spoken to. It is the ability of the 
manufacturing industry to produce the equipment. It is the 
ability of FAA to get the equipment certified. It is simply 
time and space for aircraft owners to get their planes into 
repair facilities and repair stations so that those avionics 
boxes can be installed on the aircraft. It is a tough row to 
hoe between now and 2020.
    Mr. Graves. My next question is probably for Mr. Rinaldi, 
and I also want to hear from the airlines, too. But we have a 
situation--you know, one of the things that NextGen has always 
promised us was lower costs and it is going to save us money in 
the long run and we can eliminate the outdated system, which is 
obviously, you know, passing radar or radar overall. But we all 
know, too, that if--with ADS-B----
    [Inaudible.]
    Mr. Graves. There we are. You can go invisible if you want 
to, if you pull that circuit breaker, with ADS-B and you have 
no way of tracking that plane. And then you hear the argument, 
too, well, we will just make the system permanent so it can 
never be shut off. But we know, in an airplane, you don't want 
to have a system that cannot be disabled if you have--
obviously, have an electrical failure or whatever the case may 
be.
    What worries me in this whole situation is, ultimately, we 
are going to be operating two systems. So we are never going to 
achieve any cost savings. And I would be very curious, you 
know, what you think, Captain, and probably, Nick, you can 
weigh in on that, too. And I would also like, Mr. Baker, if you 
could, too, but go ahead.
    Mr. Moak. So, look, we--we have a problem here and we are 
going to be able to work through it on ADS-B implementation and 
mandates. But let's be clear, ADS-B is revolutionary. It is 
what we need. We probably needed it 5 years ago. You have less 
separation. You can fly curved approaches. At 600 miles an 
hour, you go a long way in 7 seconds. This is where we should 
be going, and it is going to--it is going to help aviation 
tremendously, OK.
    So the--the few things we disagree on, what we need to do 
to is be working together to address them. Cost is one of them, 
we get it. But ADS-B is good for the airlines, it is good for 
the air traffic controllers, it is good for our customers, it 
is good all the way around. We just have to work through the 
hiccups, not let those hiccups define the problem----
    Mr. Graves. And I would like to address----
    Mr. Moak [continuing]. Define the situation.
    Mr. Graves [continuing]. The safety aspects of it, though, 
further. Again, are we going to operate two systems? Are we 
going to have to operate two systems?
    Mr. Moak. We--we do--we always do that. It is a transition 
phase. From the NDB, which you have flown, sir--from the NDB to 
the VOR to the tack end of the VOR for the military folks, we 
normally have two systems. It is rarely you can ever have a 
light switch on this.
    And, again, that is part of--that is part of this 
transformative issue. It is not in 1 day. It is over a little 
piece of time, so----
    Mr. Graves. Thank you.
    Mr. Moak. And you will have cost savings when you are fully 
implemented.
    Mr. Graves. I will go ahead and hear from Mr. Baker.
    Mr. Baker. You know the concern that we have, with general 
aviation airplanes, is the cost related to the benefit. And 
this is just to get ADS-B Out. ADS-B In, which we think can be 
advantageous to have some better weather in the cockpit when 
using some other type of tablet device or some other device, 
would be a benefit. And having traffic inside the cockpit, we 
see as a long-term benefit. It is simply how long will it take 
to get the benefit?
    And I do think you are right, Mr. Graves, that we are going 
to be operating two systems for a long time. And that was a big 
part of the initiative to save money here. So part of the cost-
benefit for the Government, I think, is probably not accurate 
today.
    Mr. Graves. Mr. Calio.
    Mr. Calio. You know, I should have stated early on that we 
believe that ADS-B is the cornerstone of NextGen. There are 
issues that I have laid out and that Captain Moak addressed 
that we need to work through with the FAA. The call-to-action 
meeting they had earlier--I guess it was last month now--was a 
good start, but there are still those issues that have to be 
resolved in order to achieve any cost savings, increased safety 
down the line.
    And in terms of two systems, yes. As Captain Moak said, we 
always do. But once we get past all that, we will have a much 
better system, assuming we can work out the problems.
    Mr. Graves. And, Mr. Rinaldi. I know my time has expired, 
but I would like to hear from you on this.
    Mr. Rinaldi. I think that you are always going to have two 
systems. To think that we are going to shut down a radar system 
in this country after the tragic events of 9/11 and that 
somebody will be able to shut off their ADS-B transponder and 
that we won't be able to track airplanes. And I think that, you 
know, ADS-B is--shows tremendous amount of value. But we can--
we have to have necessary redundancy of our radar system, also.
    Mr. Graves. Thanks, Mr. Chairman.
    Mr. Shuster. Thank you. Mr. Capuano is recognized for 5 
minutes.
    Mr. Capuano. Thank you, Mr. Chairman.
    Gentlemen, I am about to get on a plane for the fifth time 
in 9 days. I just want to make sure it is safe, right? We are 
good?
    Mr. Rinaldi. Yes. And thank you.
    Mr. Moak. Yes.
    Mr. Capuano. Yeah. We are paying for it. I have been 
listening to this. I don't think I have heard almost anything I 
disagree with, as far as where we want to go. You know, we have 
a good system. We have to make it better. That is natural. That 
is American. That is good. That is a good progress.
    I get a little problem, though. Everything I know that I 
want to make better about myself and my family and everything, 
costs money. Somebody has to pay for it. And we--I think I 
heard everybody in agreement that we are short on funds. But I 
am not sure that I heard anybody say where we should get those 
funds. So does anybody have any suggestions, because I would 
like to hear them?
    Yes, Captain.
    Mr. Moak. I have one thing I want to say. We do need to 
give the FAA, or encourage the FAA, or structure the FAA to be 
able to use private enterprise business principles when they 
are putting in an infrastructure program like this.
    You know, to have them doing what they are doing with one 
armed tied behind their back and criticizing them----
    Mr. Capuano. I hear--I understand that, and I appreciate 
that, Captain.
    Mr. Moak. But that saves--that save money and that reduces 
the funding gap which----
    Mr. Capuano. Well, I need a little more explanation than 
that. I love those generic terms that business can do 
everything better than anybody else. And they sound good, and 
they really fit on a bumper sticker, and they are good on 
political commercials. I am not sure what you mean by that.
    What are the political--I mean, I read, you know, Mr. 
Engler--Governor Engler's testimony, and I agree with him. AT&T 
has, in his example, rightfully improved their business model. 
It cost them a fortune to do it. It costs a lot of money to go 
from middle tape system to a new 4G system. Somebody had to pay 
for it. In AT&T's case, it was some shareholders, but mostly 
expanding their business footprint and charging me more, which 
is fine. That is America and that is the way it works.
    How are we going to expand our footprint with more people 
flying and how are we going to charge them more and keep them 
flying? Because if we don't do that, even private businesses 
have to make money? It is all well and good. If you are telling 
me there is that much waste in the FAA, I would love to hear 
where. And I am not saying there isn't. But show me the 
numbers.
    Mr. Moak. No. But----
    Mr. Capuano. Generic statements are fine, but I need 
numbers.
    Mr. Moak. Congressman, we are happy to provide it for you 
from the Air Line Pilots Association, working with A4A and BRT. 
OK.
    But stabilized funding, in a funding shortfall, it is a 
little different. You can't be working up and then, all of a 
sudden, have all funds shut down on an----
    Mr. Capuano. Captain, I agree with you. I voted against the 
sequester.
    Mr. Moak. All right.
    Mr. Capuano. So you are talking to the wrong guy. I think 
there are some other people here you got to talk to.
    Mr. Moak. All right. Well, I didn't mean it like that. But 
I also want to point out that occasionally some of these cell 
phones, not to name any names, still drop calls, despite the 
infrastructure improvements they put in.
    Mr. Capuano. Well, they are trying to improve, too. But as 
they improve----
    Mr. Moak. Right.
    Mr. Capuano [continuing]. It is costing them money. All I 
am saying is, we want to get NextGen and all the other things 
we are talking--somebody has to pay for it. It is either going 
to be taxpayers directly, or it is going to be people who use 
airplanes, the customer. Who else? Who else is going to do?
    And if it is the customer, let's not pretend that by us, 
the Government, saying that we are going to expend money and 
simply have somebody else charge you for it, that that is not a 
tax. It is. I am not against that, but I don't want to kid 
myself. If Government takes action and costs somebody money, 
that is either a direct or an indirect tax. Call it whatever 
you want. And that includes, if you raise the cost of my 
airplane ticket because a private company is now running it, it 
is no longer a tax. Now, it is just business cost. Well, that 
is kind of what we do.
    So who is going to pay for this? And I am all for it. And, 
by the way, I guess it is pretty appropriate that I am on the 
far left of this panel. I am not afraid of that. But for me, 
honesty is more important than anything else. If we are going 
to keep up and improve, someone has to pay for it.
    Are any of you willing to say that someone should pay for 
it? And I am particularly interested, are you willing to say 
somebody other than somebody else should pay for it?
    Mr. Moak. Well, I will say----
    Mr. Capuano. Are you willing to help pay for it?
    Mr. Engler. Well, in fact, let me take a shot at it, Mr. 
Chairman. A little bit of clarity on this from the perspective 
maybe of some of our CEOs. One, just--just in doing the 
buildout, if--I believe the Federal Government ought to have a 
captain budget process, so I--and that is something pretty much 
every State has. I worked for that as a Governor in Michigan.
    Mr. Capuano. I am in. I am in.
    Mr. Engler. Companies have that. And the way you do a big 
CAPEX project, which is what NextGen is, at least in terms of 
technology, you would go out and say, what is the--so there 
is--we are going to use this system for a lot of years. So 
you--you do a bond issue. You would get the money there and, 
then, you would go out and carefully invest that money, and 
in--in your--you wouldn't try and go--and Captain Moak just 
touched on that--you can't stop and start. That is expensive.
    Mr. Capuano. Governor, I am a former mayor. I am all for 
capital----
    Mr. Engler. So I have got some money because I am going to 
do a better job more efficiently of spending, my money on the 
project. We heard the testimony from General Scovel about 
overruns, and Mr. DeFazio talked about acquisition. We can do 
that better. There is more money to be saved there. But, bottom 
line, there is also, as you heard, an array of multiple 
different taxes that are being collected.
    We are suggesting that there is a way, among the 
stakeholders, to look at that, look at what other nations have 
done. Are there ways to make that an equitable outcome? Of 
course you have to pay for it. And we, as the flying public, 
Members of Congress who fly more than most in the public, you 
pay every time you fly.
    And what we are saying is, can we economize the dollar you 
are paying to make it go and get a dollar's worth of value, not 
85 cents.
    Mr. Capuano. I am all for that. But in the final analysis, 
we are going to need more money to keep it up--to catch up now.
    Mr. Engler. Yes.
    Mr. Capuano. And if it is a capital bond, fine. But when we 
are finished with NextGen, there will be something else.
    Drones are the next thing coming. I know, at some point, 
drones are going to be, you know, delivering my Chinese food. I 
know that. But I also know another thing, I know Captain Moak 
and his people need to see those drones and we are going to 
have to come up with a system that will allow you to do it and 
that is going to cost money, too.
    Thank you, Mr. Chairman. Thank you for indulging me.
    Mr. Shuster. Thank you, gentlemen.
    With that, I recognize Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. And thank you for 
holding this important hearing on reauthorization, having been 
through several of them.
    Probably one of my main concerns is our lack of progress on 
NextGen. First bill we--that I helped author, we worked on it--
in the last bill, we worked on it. And, unfortunately, I think 
NextGen is either in the stall or reverse, and that is not 
acceptable.
    Inspector General Scovel, is the lack of funding, has that 
been the major problem in not moving forward with NextGen?
    Mr. Scovel. From our work, Mr. Mica, we don't think a lack 
of funding has been a problem. Certainly, the timing perhaps of 
that funding, the steady stream of funding. But I think that is 
different from a lack of funding.
    In fact, in the past, the Congress has been generous even 
exceeding the administration's request specifically for 
NextGen.
    Mr. Mica. And I think that is the case. Well, somehow FAA 
is not getting it together.
    And the other thing, too, is, in order for NextGen to be 
implemented, everybody here has to have some benefit by--the 
airlines have to have a benefit; right? Mr. Calio?
    Mr. Calio. Yes. Clearly. It is a point we have made over 
and over.
    Mr. Mica. Mr. Baker?
    Mr. Baker. Yes. Need a benefit. We don't see it today.
    Mr. Mica. And the pilots? Mr. Moak?
    Mr. Moak. NextGen is the future. We need to keep moving 
forward.
    Mr. Mica. Governor, do you know anything in business that--
or business aviation that doesn't look for some benefit to--to 
a new system or expenditures they are called on to make?
    Mr. Engler. Absolutely.
    Mr. Mica. OK.
    Mr. Engler. We want to get rid of those holes.
    Mr. Mica. Somehow there is a disconnect. I don't--I don't 
think we are headed in the right direction. We have got to turn 
this around. And, actually, everybody who is at the table--I 
didn't get to you, Paul, or Mr. Rinaldi. Air traffic 
controllers who use the system, it has to benefit them, too; 
right?
    Mr. Rinaldi. Absolutely.
    Mr. Mica. Right. Right. I saw my late and the great staff 
director, Mr. Coon, sitting back there texting, which I have 
told him not to do during the hearing.
    [Laughter.]
    But he and I--I remember leaving aviation. We both sort of 
wiped our forehead when I chaired that one. When I left as 
chairman, we sort of wiped our forehead. And it was a sigh of 
relief that there had been no major aircraft--passenger 
aircraft--this is in large aircraft that we had had a disaster, 
like the one we had in, was it, November of 2001 after 9/11.
    Now, we did have small commuter and regional aircraft. 
Mr.--the late Mr. Oberstar and I and others, we worked--Mr. 
DeFazio isn't here--to do commuter safety, and we have done 
good there.
    But I am telling you guys, the clock is ticking. It is 
going to happen. It can be an air traffic controller. It can be 
a pilot error. There is no reason the United States should not 
have the most advanced air traffic control system in the world, 
and we do not have it.
    Mr. Rinaldi, have you been to Canada?
    Mr. Rinaldi. I have.
    Mr. Mica. OK. Canada is about one-tenth our size, but 
they--they have a system. They are already placing themselves--
they will have satellite capacity. We should be ahead of the 
game on this thing. But maybe it is going to take a disaster to 
wake people up to this. We cannot backslide on NextGen. So that 
is just one point.
    In the mean--did you want to comment?
    Mr. Moak. Yes, sir. Congressman Mica, I also represent the 
pilots of Canada. And although NAV CANADA is a system we should 
be looking at, I just want to point out that I have also had to 
represent pilots that have had major aircraft accidents up 
there. And in this pay-to-play mode, we have to be mindful that 
some of their airports in the northern part, they don't--under 
that system, they don't have the most advanced systems. So----
    Mr. Mica. But they are adopting to that faster than we are 
and will still soon have that if they have that capability. And 
it is placed from a satellite rather than a radar-based system. 
So that is my point, is we have got to--we have got to stay 
ahead of that game.
    You don't want to pick anything that is outmoded as a 
technology. What you want to have in place is the technology 
that--that gives us the best coverage. And we will probably--as 
was testified, we will probably always have to have the backup 
systems because we have had and we want to maintain the safest.
    But I am telling you, don't--we all need to gather again 
together--maybe not Mr. Scovel--but this group here can make it 
happen. We have got to pay for it, and some of it--it has been 
mostly about an 80-20 proposition. I would like to see that 
more self-paying. And I don't think there should be a war 
between the airlines and the airports. We need the facilities. 
Our airports need to be expanded across this country to be able 
to accommodate the aircraft that we have coming into play.
    So one last thing: Do you all find out who are 
representatives to ICAO? Who is the Ambassador to ICAO?
    Mr. Moak. Senator Lawson.
    Mr. Mica. OK. OK. There should never be an air--ICAO, 
International Civil Aviation Organization up in Montreal 
controls all the rules, the international rules. There should 
be--never be a passenger aircraft that takes off in the United 
States or anywhere in the world--this sets the world 
standards--that we don't know where that is. What happened with 
Malaysia Air 370 should never happen. We should know where 
every aircraft is.
    It is the United States responsibility to take the lead in 
the international organization. I want all of you to write the 
Ambassador and say, ``We need to pass in ICAO a rule that no 
passenger aircraft should ever be lost.'' OK. So that is one of 
the larger pictures. This should never happen again.
    Am I out of time?
    Mr. Shuster. Yup.
    Mr. Mica. Yeah, I have been out of time for some time. 
Thank you. I will submit--just--just to be nice and not 
embarrass anyone, I will submit the rest of the questions 
later. I did want Mr. Baker to address the falling number of 
single-engine piston-powered aircraft and number of pilots in 
the United States.
    Mr. Shuster. I believe he did that in his testimony.
    Mr. Baker. Yes, I did.
    Mr. Shuster. So we have got that in the record.
    With that, Ms. Norton is recognized for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. Forgive me, 
I have a cold.
    I agree with Mr. Mica. In the present environment, it may 
take a catastrophe to move this along. It is a good thing this 
wasn't--this hearing wasn't called ``Progress on NextGen'' 
because you have had nothing but setbacks. And it is time you 
were candid with the public and with this committee. It is 
murder flying today. It is murder. Because more people are 
trying to fly and you are having to be more and more cautious. 
That is what we need to tell the American people.
    I had high hopes for NextGen because of the economic 
effects in our own country and because of what it means for our 
place in the world. But you have operated within an environment 
where--where you--you had to stop major NextGen programs where, 
you know, the environment of 20,000-plus furloughs, half a 
billion dollar cuts in operation, hiring freezes. You know--you 
know, somebody needs to be candid here and--and tell the public 
what I think the gravamen of your testimony is here.
    Now, Captain Moak said, ``Proceed cautiously.'' God, I wish 
we were proceeding at all. ``Proceed cautiously to a new 
system.'' This 2020 date that was set some time ago is a 
fiction. And what we need to tell the public, don't we, is that 
they are going to have--we are going to be living with the 
present system for the foreseeable future.
    Mr. Scovel, you are an inspector general. You are--you are 
supposed to tell the truth here. I mean, isn't that, in effect, 
what the testimony amounts to today and what the present lack 
of progress has meant?
    Mr. Scovel. There are some very tight wickets to be run 
between now and 2020.
    Ms. Norton. Some very what?
    Mr. Scovel. Tight wickets, in other words, for industry and 
for FAA to get----
    Ms. Norton. I am talking about on the public side.
    Mr. Scovel. I am sorry. I misunderstood.
    Ms. Norton. I am talking about on the public side. The 
public side has to be a partner to whatever wickets the private 
side is trying to run.
    Mr. Scovel. Yes. And by public, if you mean the FAA and 
what it must do in order to provide these enhanced air traffic 
control services to our national airspace, absolutely.
    Ms. Norton. So this is a system you got and what I am 
asking you to do is to make the system we have got as safe as 
you can. Because you really can't sit there with a straight 
face and tell me and tell the American public that the way we 
are going to get out of this is we are going to move to a new 
system, you know, the system which has high hopes, less delays, 
less environmental impacts, because we are not going to do that 
any time soon.
    Yes, sir, Captain Moak.
    Mr. Moak. Just in case I--I gave the wrong impression: Our 
system for our customers and for our pilots, for our 
crewmembers is the safest system in the world.
    Ms. Norton. OK. I am not questioning your safety.
    Mr. Moak. It's very safe.
    Ms. Norton. I am telling you this--look, I don't even have 
to fly the way my colleagues do it. But when I do fly, I see 
what is happening. I can't imagine what they see.
    Mr. Moak. Right.
    Ms. Norton. It is murder, because more and more people want 
to fly in more and more crowded skies. I believe we have a safe 
system. I know it, because you slow things down to make it 
safe.
    Mr. Moak. And the--the other thing I wanted to add on the 
safe system is many of--NextGen is not defined by the 2020 
mandate. It is not defined by ADS-B. NextGen is a work in 
progress, and many of the benefits of NextGen have already come 
online. And I think that is getting missed there. In fact, in 
my----
    Ms. Norton. Captain Moak, the FAA and nobody here is even 
willing to give us a target date for when the--we could say we 
have now made the transition and we have moved to NextGen.
    Mr. Moak. Well, many here----
    Ms. Norton. Isn't that the case?
    Mr. Moak. Well, I would say----
    Ms. Norton. I mean, for most programs--for most programs in 
our country, we at least have a target date. And if you don't 
have a target date, then it does seem to me your goal should be 
to keep the system we have because that is a system we are 
going to have for some time--Mr. Scovel didn't object to that 
characterization, and to keep it as safe as it can with 
whatever slow down, telling the public, ``Yes, there will be 
slowdowns. But you have to understand that these slowdowns are 
to keep you safe.'' It is better to have that kind of candor 
than to have people being angry at the airports when you tell 
them that they can't get someplace when--when we were supposed 
to get someplace.
    Now, I am not chastising the private sector. I know who is 
to blame here. But I am saying, now that we know what the 
atmosphere is like, be candid with the public so that the 
public does not expect anything but slowdowns for the 
foreseeable future.
    If anybody objects to that, speak now or forever hold your 
peace.
    Mr. Moak. I--I can't let that stand like that, because, you 
know, the on-time records, the improvements, the safety, that 
is not a characteristic of our U.S. aviation system. We are 
working. It is never going to be a finite date that everything 
is done because it will be constantly improving all along.
    The nuance problems we are working through here as a team, 
we will always work through them. So I would say it was a 
mischaracterization of the U.S. airline industry.
    Mr. Shuster. Thank the gentleman. The lady's time has 
expired.
    I am going to recognize myself for 5 minutes to ask a 
question.
    I think it is pretty apparent that the process doesn't work 
like it should. We obviously have the safest airspace in the 
world--the biggest, largest airspace in the world. But when you 
look at Mr. Engler's example of AT&T and you can look at i--or 
Apple, in the last 7 years, they have had eight phones, eight 
iterations.
    We are now, at the FAA, spending $115 million on an--on an 
information system, flight information system, that they are 
projecting to be done in 2025. There will be probably 10 more 
iPhones out before the FAA gets there. And those are the kind 
of things that is it is just apparent the process is broken, 
when you look back over the last 3 decades in the 10, 11 
different pieces of legislation and Executive orders that said, 
``Let's get this done.'' And I am sure that--you know, as 
Michael Huerta, who I think has done some good over at the FAA. 
But if you look back, I am sure you are going to find every FAA 
Administrator saying, ``We are moving in the right direction.'' 
But, you know, they are moving at a snail's pace.
    And so to Mr. Mica's point of view, we have got to get 
these things up and running. And the process doesn't work. And 
we all--I think, it is apparent that the money starting and 
stopping is a huge problem.
    So, Governor Engler, coming from--you all represent 
businesses. But as a user, as somebody that looks at this and 
needs this airspace, that needs this system to work efficiently 
and with the benefit of how your company is operating in a 
technology world, a new governance model, how do you envision 
that working, not only from the process, but also from the 
funding side? And I know you have talked about it a little 
bit----
    Mr. Engler. Sure.
    Mr. Shuster [continuing]. But I won't interrupt you and I 
will let you lay it all out.
    Mr. Engler. Well, at least some of the thinking is to 
examine these stakeholders, and many of us are at the table 
here today. Others are not, but would--would want to be 
included. And--and it really is a question of stakeholders 
coming together.
    And nobody has made any decisions on exactly how--what a 
funding model would look like. That has always been a sticking 
point in the past. I mean, that is when it gets hard, when you 
start putting money. And that has been referenced here.
    But, you know, one of the other Members was pressing us on 
money. There is a lot of money in the system, and so--and there 
is a recognition there still are airport needs out there. And 
that--so this separating this out, that is one of the reasons 
some of the work we have been doing is really trying to 
understand what funding models might look like, what options 
might be there, but not trying to get into that conversation. 
Because that really is--my sense has been, given the size of 
the committee, the complexity of the issue, if you can't get 
all the stakeholders together, we are not going to be able to 
show up here and be very successful. So that is going to be 
really, really important.
    On the governance side, the same thing is true. The people 
who are putting up the funds who have an interest in this 
working, be they pilots, be they the controllers, be they 
certainly the commercial airlines themselves, general aviation, 
all will want a seat--need a seat at the table for that. There 
is sort of a model that was used up in Canada in terms of 
bringing the stakeholders together. Now, that--that really is 
only on sort of building out the system, the things, the 
technologies.
    The other very key part of this never leaves the FAA, it is 
the whole--the safety regulations there. And I made reference 
to, you sort of have today the regulator, the decisionmaker on 
the technologies designed to enhance safety also being the 
decisionmaker on safety itself.
    And so there is an inherent kind of conflict that exists, 
if you will. And what works well, I think, is some separation. 
The agency still has got all of the safety responsibility, plus 
they have got all of the operational responsibilities which 
are--I mean, these captains they have challenging jobs, because 
they have got these manuals of technical specifications. You 
have to comply with how you fly.
    And the reason we are the safest in the world, if they 
find, I don't know if there is a different way to deal with 
wind shear, I mean, an edict goes out and pilots are almost 
retrained instantly on that in the commercial space. 
Controllers have a lot of technical things they are in charge 
of, and the agency is way behind on some of this stuff. And, 
frankly, an agency that was really focused laser-like on 
getting caught up there, so that as new technology was 
available and could be deployed, it would be an agency that 
would be really working well.
    So I actually think, in this case, kind of realigning these 
responsibilities a little bit, so that everybody is doing what 
they are best at doing, and picking up the pace, we get to a 
better place for the Nation's air traffic system.
    Mr. Shuster. Thank you, Governor. And I think you made a 
good point there, which is maybe we need to be looking at all 
of these other different systems around the world and how they 
do things. The one number from NAV CAN that just actually 
jumped off the page at me was that we are nine times the size 
of the Canadian airspace. We spend 20 times as much in CAPEX as 
they do. And from what I have seen, and Chairman Mica has been 
up there, and their technology has advanced ours, and they are 
spending a lot less money getting technology and getting it out 
there quicker. So I think that is something that, you know, we 
need to put up there and pay attention to.
    With that, I will yield 5 minutes to Ms. Esty.
    Ms. Esty. Thank you, Mr. Chairman. And as a new member of 
the committee, I have to say, this is one of the rare areas 
when I came on the committee 2 years ago, when I said oh, my 
God, this is a triple win. If we get NextGen right, we are 
helping with safety, we won't lose planes--which I was told we 
don't lose planes, but now we know we do. It has happened, it 
is better for the environment, and it is beer for communities. 
We don't need to expand our runways as much.
    We need to find a way to get this done. So it seems to me 
there are two different issues: One is the funding and one is 
the timing. The benefits don't really accrue until we have a 
critical mass who have the equipment in place. So I think we 
need to be looking at, Mr. Chairman, a carrot-and-stick model. 
When we have the cost of borrowing near zero, we absolutely 
need to find a way right now to do this with American 
technology that sets the standard for the world.
    And one way to do that is set a date certain by which all 
equipment must be retrofitted, and there are heavy penalties 
beyond that, and then you set together a funding corpus that 
you borrow from. But anybody who wants to be the late one to 
the table, to be the free rider, they are going to pay heavily. 
And that seems to me a way to help engage the market and engage 
Wall Street in setting out that money. The Federal Government 
ought to partner, but we need to set a realistic timeframe and 
a very heavy incentive to comply by that timeframe.
    That will bring the cost of the technology down, and we 
would get it done before 2025. This is ridiculous; we should 
not have to wait that long. And clearly, we are going to need 
more iterations. But we risk the real opportunity right now 
that not only are we behind, but that other countries are going 
to develop and sell the technology to the world and the 
standard. And that is foolish. We should not do that.
    Our citizens deserve the safety. Our communities deserve to 
have cleaner air. It is better for the environment. We deserve 
to not be chewing up land we do not need to, and we should get 
this done faster. So if anyone would care to opine on whether 
we think what kind of timeframe is realistic. If we could get 
the money together to borrow from over time, what is the time 
period by which realistically we could say, you have to 
retrofit or have new equipment to meet this model?
    Mr. Calio. Congresswoman, if you are suggesting that it 
is--are you talking about the airline's need to retrofit?
    Ms. Esty. Yes.
    Mr. Calio. Well, I think here it is a very complicated 
question, or more complicated question. We have deadlines. We 
have had deadlines in the past. We have met the deadlines. We 
have invested money. There is $6 billion in the trust fund 
right now that is unallocated. We have the money, really. The 
problem lies in the processes, and making sure that the 
equipment works, and making sure that there is a return on the 
investment for the equipment.
    It is far more than that. I mean, just setting a deadline I 
don't believe, with all due respect, is going to do anything. 
We have a deadline for 2020 on ADS-B, and yet, we are not 
harmonized with the world. The case hasn't been made that there 
is going to be a return on investment for the people who are 
being forced to invest in it. Meanwhile we are flying around on 
aircraft, we have aircraft in our fleets that has equipment on 
it that we can't use because the procedures are not in place to 
use it. It is a very frustrating situation.
    Ms. Esty. Well, then, one of those pieces that we could--to 
realize the benefits--obviously, we are talking about sort of 
these unrealized or unrecognized benefits. How do we 
incorporate that into the system so that, in fact, they are 
realized, or the incentive is there such that they do get 
realized by those who currently find it not to be in their 
interest?
    Mr. Moak. So, Congresswoman, we are making progress. You 
know, it doesn't lend itself in the time that we have here, but 
if you go out to greener strides in Seattle, for example, they 
concentrated on that. They brought it on line. It saves 
emissions. It saves fuel. It is a safe operation. And they are 
trying to replicate that all over the United States. The 
Houston metroplex, they brought that on line. Great job there.
    And again, I want to stress what I said earlier: The 
airlines have trained the pilots; the controllers are trained; 
we are working through procedures with the controllers; the 
airlines have invested; and the FAA continues to work, but 
again, private enterprise management principles applied in the 
public sector with the FAA; stabilized and consistent funding; 
all of those things allows them to do a better job. Right now 
they are working with their hand tied behind their back, I 
believe.
    Mr. Engler. I think that your summation is excellent. I 
mean, you say how do you kind of make these pieces and sequence 
them to get them all to work. But there is a point in there 
that you really touched on that deserves to be picked up a 
little bit more, and that is on these procedures that Captain 
Moak just referred, that Nick Calio just referred to, that one 
of the recommendations of the Management Advisory Committee, 
and this was unanimous recommendation, is give these 
stakeholders more of a role in helping to prioritize what 
procedures need to come when so that we can get those done, 
because some are high value, high payoff, pretty quick return. 
Others have a little bit longer tail. And I think that kind 
of--this is what I think General Scovel will tell you about in 
terms of performance management. I mean, normally all of us 
would in our offices or in our enterprises, do it by order of 
priority.
    Mr. Shuster. The gentlelady's time is expired.
    Mr. Meadows is recognized for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Scovel, let me come to you because sitting in your 
exact seat, we have had people before this committee with the 
FAA, and both the Administrator, and the person in charge of 
making sure that NextGen gets implemented. And when we asked 
for deadlines, we asked for timeframes, I see sweat pop out on 
their brow, and really, the plan to get it implemented, there 
is not an answer. And you said it was a very tight wicket. I 
made the analogy it is like getting a bowling ball through a 
wicket.
    And what degree of confidence on a scale of 1 to 10, with 
10 being most confident, do you have in the FAA's ability to 
implement most of this thing and meet the target deadlines that 
have been reestablished? I might add, these are not the first 
deadlines. These are multiple deadlines. On a scale of 1 to 10, 
how confident are you, and would you place your job based on 
that rating?
    Mr. Scovel. Well, that is a tall order, sir. And when I 
mentioned tight wickets, I was referring specifically to the 
time between now and the mandate in 2020 for airspace users to 
equip.
    Mr. Meadows. Right.
    Mr. Scovel. ADS-B Out equipage. What happens after that is 
anyone's guess.
    Mr. Meadows. So we are going to invest billions of dollars 
on anyone's game or guess?
    Mr. Scovel. Yes, but I do agree with Captain Moak that it 
is essential, it is necessary, and it is achievable. It is a 
question of enough time and proper procedures.
    Mr. Meadows. Well, it is achievable that I can run a 
marathon, but it is not real likely that it is going to happen 
in the near future, too. I mean, so from a timeframe 
standpoint, when do the stakeholders start to get counting on 
our timeframe so that they can make the proper investments? As 
a business guy, it concerns me greatly that we are spending 
millions and billions of dollars to have equipment and training 
ready, and yet, we are not doing our part on the Federal 
Government side.
    Mr. Scovel. Well, let me just take the January 2020 
mandate.
    Mr. Meadows. Right.
    Mr. Scovel. Realizing everything that needs to be done 
there in terms of automation platform renewal and 
modernization, ERAM is supposed to be completed----
    Mr. Meadows. Right.
    Mr. Scovel [continuing]. In 2015, right? STARS is supposed 
to be completed several years after that, DataComm is supposed 
to be coming on in 2019, the need to develop procedures and 
training for all of the controllers, the need for enough of the 
fleet that is going to use the system to equip so that we can 
have end-to-end testing. Without the end-to-end testing, we 
can't be sure that it is going to operate as intended.
    Mr. Meadows. Right.
    Mr. Scovel. And all of that by 2020?
    Mr. Meadows. Scale of 1 to 10, 10 being the highest.
    Mr. Scovel. I am less than 5. And I would say, probably, we 
don't have until 4.5 years from now in order to judge. We may 
have a year and a half, 2 years, because by the time the whole 
thing comes out of service to equip, we won't have time to----
    Mr. Meadows. That is right. So let me shift to Europe then, 
because they are in the middle of an ATC modification as well, 
and they are taking a different approach, which is saying make 
sure that all of the stakeholders have all of the stuff, and 
yet they are not going to make their deadlines either. So would 
you say that our approach is better than their approach? It is 
a softball.
    Mr. Scovel. In terms of?
    Mr. Meadows. In terms of ultimately getting what the 
airline industry, and what air travellers need, is it a better 
approach to make sure the stakeholders are equipped first, or 
is it better that we do what we need to be doing on the part of 
ground installation, et cetera?
    Mr. Scovel. Well, the ground installation is done.
    Mr. Meadows. Which one is better?
    Mr. Scovel. That is about one-third of the equation.
    Mr. Meadows. Right.
    Mr. Scovel. We still have a long way to go.
    Mr. Meadows. In the training and other implementation.
    Mr. Scovel. And the stakeholder----
    Mr. Meadows. So is our process or Europe's process better? 
I need you on the record to tell me which one is better.
    Mr. Scovel. Oh, let's see. We are going to make ours work, 
and it is going to be done right.
    Mr. Meadows. So is ours better?
    Mr. Scovel. For now, for us. We have to take into account 
our stakeholders.
    Mr. Meadows. It sounds like you are running for office. 
That is a political answer.
    Mr. Scovel. I am trying to avoid any kind of policy input 
because I know that is the committee's----
    Mr. Meadows. I am asking you that. I am asking you a direct 
question. Would it be better that we get rid of the process we 
are having and adopt theirs? OK.
    Mr. Scovel. By process, are you referring specifically to 
the----
    Mr. Meadows. Well, their emphasis is more on the 
stakeholders. I would assume that your answer is no.
    Mr. Scovel. No. We have to have an emphasis on 
stakeholders.
    Mr. Meadows. All right. I will yield back, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Meadows.
    And with that, Mr. Lipinski is recognized for 5 minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    I wanted to first ask Mr. Calio and Mr. Baker, we were 
talking already about the issue with ADS-B Out and incentives 
for installation of those. Let me ask specifically two things: 
Would financial incentives be enough? And/or should there be a 
greater use of best equipped, best served policy that the FAA 
uses? What are your thoughts on those?
    Mr. Calio. From our perspective, the airlines for America, 
the best incentive would be to provide equipment and a process 
by which we can employ the equipment and see a return on 
investment that the cost would not outweigh any benefits.
    Mr. Lipinski. OK. Nothing more specific than that, OK.
    Mr. Baker.
    I understand that.
    Mr. Calio. We don't need a loan guarantee to invest in 
equipment if we know the equipment is going to work, and that 
we can use it and get our passengers to their destinations 
faster and more efficiently and safely than we do right now.
    Mr. Lipinski. OK. Mr. Baker.
    Mr. Baker. For the general aviation marketplace, we are 
open to anything that helps lower the cost for installation. 
The general aviation marketplace has been under siege for years 
and years, and we are driving, on average, 40-year-old 
aircraft. So if there is a way to look at, you know, what are 
the other choices between either a portable device, some type 
of financial setup, anything that helps lower the cost for 
general aviation, we would want to consider it.
    Mr. Lipinski. Mr. Rinaldi, what are NATCA's thoughts on the 
current best equipped, best served policy?
    Mr. Rinaldi. Well, the FAA is not doing the best equipped, 
best served. We are still on the first-come-first-serve, but 
obviously, we are not going to you know, put a Cessna that is 
flying at 110 knots in front of an Airbus 380 that is doing 170 
on approach. We are going to move that Cessna out of the way 
because it is safe and orderly. Best equipped, best served 
would work. The problem really comes, Congressman, when it is 
mixed equipage, and if we don't have a high number of aircraft 
equipped, then we can have the greatest procedures in the 
world, but we are going to have to reduce it to the lowest 
common denominator to continue to run a safe and efficient 
flow.
    Mr. Lipinski. All right. I want to move on to another 
issue. As many of you know, Midway Airport is in my district 
and suffered from thousands of canceled flights after the fire 
at the Aurora in or out center.
    Mr. Rinaldi, I would like to express my appreciation for 
your hard work at NATCA, and also my appreciation for what PASS 
did, and the work you put into keeping our system running and 
to get Aurora facility back in line. I know it was a 24/7 
operation and years of work were completed in less than a 
month, and I commend the collaborative, innovative, and 
diligent effort that was undertaken to manage and remedy that 
situation.
    Mr. Rinaldi, I understand that NATCA, PASS, and the FAA 
work collaboratively in a working group to identify 
recommendations to keep systems on line, but there is still a 
fix-or-fail strategy in place. I am interested to learn about 
the status of these collaborative efforts, what recommendations 
have been made, and whether you believe that the 
recommendations will be adopted, and will finalizing NextGen 
mitigate the effects of emergencies that may occur in the 
future?
    Mr. Rinaldi. Well, we were excited to participate with the 
panel with the FAA and PASS and other stakeholders. It is still 
in its infancy stage. We did put it all together, and it is in 
the process of the review to go through the Department of 
Transportation at this time.
    Mr. Lipinski. And, additionally, looking specifically at 
the--I know that the IG is still examining the security 
protocols at the Chicago area facilities, but I am interested 
in learning more about what we need to do for the system as a 
whole. For instance, the fire suppression system at Aurora used 
water to put out the fire. And while that did work to put out 
the fire, I am wondering whether there is a need to look in all 
alternative suppression systems that could effectively handle 
fires to save lives without compromising the equipment? Are 
there other fixes that can be made, Mr. Rinaldi, or Mr. Scovel, 
if you have any answer on that one?
    Mr. Rinaldi. Yeah, I believe the security panel in which we 
also participated is looking at all options, and they are 
making their recommendations and phoning them up.
    Mr. Scovel. Mr. Lipinski, we will be looking at what the 
agency's current plans are and also what they intend to proceed 
with. So I can't at this point give you a definitive answer to 
your question. But it clearly is a significant concern for the 
agency going forward, and along with the safe integration of 
UAS into the airspace, this will have huge ramifications for 
the FAA.
    Mr. Lipinski. Thank you. I yield back.
    Mr. Shuster. Thank you, Mr. Lipinski.
    I think all our Members have questioned. I just want to 
thank the--oops. I always forget you, Davis.
    Mr. Davis. You know----
    Mr. Shuster. Mr. Davis, I will give you 6 minutes.
    Mr. Davis. Well, thank you. Thank you. You sit in the 
chair, you give the guy a break, and I said I wasn't going to 
give it back up but you see who actually gets the chair back, 
and then he forgets me. Thank you, Mr. Chairman. I appreciate 
that. I have just used my extra minute too, Nick.
    But I do want to start with Mr. Calio, and also give Mr. 
Baker and Mr. Rinaldi a chance to answer this. I know you 
touched on the edges of the $5 billion to $6 billion NextGen 
investment that the GAO reported, but there is little 
confidence, as I think we have seen and heard through testimony 
in this hearing, among the stakeholders and FAA's ability to 
implement NextGen. Where is that disconnect, and what return on 
investment is the taxpayer seeing from that process? And Mr. 
Calio, if you could just even expand a little bit more on what 
you have already talked about on that issue, I would appreciate 
it.
    Mr. Calio. Thank you. Congressman Davis, there are, as 
Captain Moak pointed out, there are benefits that already being 
realized. In certain areas we have put in place procedures 
where planes can get in quicker and take off faster. More 
clearly needs to be done though, the return on investment will 
come, I think when the--or we think when the procedures or the 
business processes as Captain Moak has referenced and Governor 
Engler addressed are put in place.
    Our problem is, the system as it is currently structured 
and operated does not have, if you--the question came from, I 
can't remember which Member--if you were making a capital 
expenditure as a business, you would look at your return on 
investment, your return on capital. You would have your process 
laid out over long term. You know, you would approach it 
probably incrementally, which has not always happened with the 
FAA. You need those kind of business-like, private-sector 
decisions. It is not a general knock on Government; it is just 
that we have not been doing that. And we have seen the embrace 
of technologies often that weren't ready, the standards set the 
wrong ways, and with very little input with the stakeholders 
most affected.
    Mr. Davis. Thank you, Mr. Calio.
    Mr. Rinaldi.
    Mr. Rinaldi. I think we have to look at some of the 
successes we do have, and although the FAA, and maybe even 
Congress doesn't even want to talk about transforming our 
platforms, our en route modernization platforms and our 
terminal platforms. The first things, they are the chassis in 
which we are going to attach a lot of the NextGen technology 
to, we are making progress with that. And we should be done 
with the en route, what we would call ERAM, in 2015, and the 
terminal automation, and STARS replacement by 2018.
    Now, you have those on and then you can actually start 
attaching the technology and the ADS-B, and the SWIM, the 
information systems and start bringing them on line. You know, 
my frustration is that we are still the safest and most 
efficient, and we are working very hard and very 
collaboratively to modernize the system, and we are doing it 
piece by piece. We have revamped the whole State of Texas 
airspace, basically. We did what we call OAPM, optimizing the 
airspace in Houston. It is a huge success. The airlines are 
seeing benefits from it. You know, optimization of departures 
and arrivals. We now have rolled it out in north Texas also. 
Texas is a big State. It is big airspace. A lot of airplanes. 
So we did that. So now we have a playbook to move forward. It 
is not a flip of the switch or a snap of the fingers. We still 
have to continue the legacy system and run it as safe and 
efficiently as possible while we are doing this.
    Mr. Davis. All right, Mr. Baker.
    Mr. Baker. Well, when we think about general aviation 
aircraft, if it makes sense, people will adapt.
    We think there is probably close to 80 or 90 percent of the 
people today using some type of a GPS to move around and 
navigate with, whether it be portable or panel-mounted. People 
are starting to use a tablet, namely the iPad, in very 
significant ways to get weather and traffic in the cockpit at 
low altitudes. When there is a value, when people can see that 
you are getting something significantly better with which to 
fly the aircraft, people adapt.
    We are just asking for this to be considered: what is the 
lowest possible cost to do that so that we get that adaptation 
across the system?
    We are in favor of ADS-B where it makes sense. If we can 
get weather and traffic in the cockpit, we will be better off.
    Mr. Davis. Thank you. Mr. Scovel, in your testimony, you 
raise the issue of safely integrating UAS into our airspace. 
Many advanced economies from Australia to Canada, to even 
France, have successfully integrated small UAVs into their 
airspace. Canada has issued over 1,500 commercial approvals 
compared to the FAA's 7. I mean, I think that shows that the 
risk-based small UAS rules, that actually, we need to unlock 
what I think would be rapid job creation. And the FAA partners 
with its counterpart foreign agencies in countless ways. Has 
the FAA reviewed other country's actions on small UAS and 
leveraged those best practices in preparing the small UAS 
rules?
    Mr. Scovel. My office has done work, sir, on FAA's efforts 
to safely integrate UAS into our airspace. I don't know whether 
we have looked at FAA's review of other nations' procedures and 
practices. I would be happy to get back to you on that.
    Mr. Davis. Would you please do that? I mean, in my district 
it is a very rural district.
    Mr. Scovel. Right.
    Mr. Davis. We need to make sure we have some idea of what 
type of possible commercial expansion in UAS technology we can 
utilize here in this country, and I think when you look at a 
1,500 commercial approvals in Canada versus seven here, there 
might be something to be learned in what they have seen, and 
how they have integrated that into our airspace, or their 
airspace. So with that, I thank you for your questions--or 
thank you for your responses, and I yield back.
    Mr. Shuster. I thank the gentleman and my apologies for 
overlooking him. I will never do that again.
    Well, I want to thank everybody, especially our panelists 
for being here today. The final word is, let me start off by 
saying that I believe Administrator Huerta has done some 
positive things down at the FAA, but as I mentioned earlier, I 
think if you go back 30 years and every Administrator, you are 
going to say, well, that person did some positive things, and 
that person did some positive things. But as I look around 
these five chairmen on these walls here, all for the last 25 
years worked to pass legislation to reform, to change the FAA, 
and you look back to 1992, Governor Baliles, who wrote a 
report, 25 years ago, if you read that report, we are talking 
about the same stuff.
    And so I think we have an opportunity here to do something 
different. The process doesn't work the way it should, and I 
know we get a little bit here and a little bit there. The 
funding is not there. And if you think Congress in this 
environment that we are in today with the deficits, and the 
debt that we have is going to be able to fix this, we are not 
going to be able to.
    So we need to look at something different, not only from 
the process standpoint, but from the funding standpoint, a new 
way forward. And we have to do it together. And right here is 
the core group of folks that you represent that we have got to 
sit down and we have got to figure out together. It is not 
going to be Peter DeFazio and I saying this is what we are 
going to do. I think if you looked over the last 1990s, and 
2000s, President Clinton and President Bush both pretty much 
hatched it in the back room and then got slaughtered when they 
took it to the floor of the Senate or the House because they 
didn't bring the stakeholders to the table.
    And I really do believe there is a way forward for us, and 
not everybody is going to get everything they want, but I think 
we can get something that is going to improve the system 
significantly, that is going to give us--today we have the 
safest. We need the most efficient. Because if we don't, I 
really truly believe, if we don't do something now, and I think 
there is an opportunity for us, we are going to continue to 
lose our lead in the world, and when it comes to aviation, and 
you look back through history, and strewn with when America 
didn't step up and do what is right to get out of the way of 
business, we lost many, many industries.
    So again, on my watch, I don't want that to happen. And I 
am going to continue to work with Mr. DeFazio, and Members on 
both sides of the aisle, and you, of course, the stakeholders, 
to be able to craft something. And September is the due date, 
so we need to strap on our helmet, and go to work and figure 
out how to do this. So again, I thank everybody for being here. 
It was a great hearing today. I appreciate it greatly. Thank 
you.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

   
    
                                    
</pre></body></html>
